<html>
<title> - OVERSIGHT OF THE FEED THE FUTURE INITIATIVE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
              OVERSIGHT OF THE FEED THE FUTURE INITIATIVE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                AND THE

                SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 20, 2010

                               __________

                           Serial No. 111-114

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/



                  U.S. GOVERNMENT PRINTING OFFICE
57-606                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3057405f705345434458555c401e535f5d1e">[email&#160;protected]</a>  

                                 ______
                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
              Subcommittee on International Organizations,
                       Human Rights and Oversight

                   RUSS CARNAHAN, Missouri, Chairman
BILL DELAHUNT, Massachusetts         DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
THEODORE E. DEUTCH, 
    Florida<greek-l>As of 6/10/
    10 deg.

                                 ------                                

                Subcommittee on Africa and Global Health

                 DONALD M. PAYNE, New Jersey, Chairman
DIANE E. WATSON, California          CHRISTOPHER H. SMITH, New Jersey
BARBARA LEE, California              JEFF FLAKE, Arizona
BRAD MILLER, North Carolina          JOHN BOOZMAN, Arkansas
GREGORY W. MEEKS, New York           JEFF FORTENBERRY, Nebraska
SHEILA JACKSON LEE, Texas
LYNN WOOLSEY, California


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Patricia Haslach, Deputy Coordinator for Diplomacy, 
  Office of the Coordinator for the Global Hunger and Food 
  Security Initiative, U.S. Department of State..................    13
The Honorable William Garvelink, Deputy Coordinator for 
  Development, Office of the Coordinator for the Global Hunger 
  and Food Security Initiative, U.S. Agency for International 
  Development....................................................    19
William H. Danforth, Ph.D., Chairman, Board of Directors, Donald 
  Danforth Plant Science Center..................................    39
Mr. Gerald A. Steiner, Executive Vice-President, Sustainability 
  and Corporate Affairs, Monsanto Corporation....................    48
Hans Herren, Ph.D., President, Millennium Institute..............    56
Ms. Evelyn Nassuna, Uganda Country Director, Lutheran World 
  Relief.........................................................    64
Ms. Jennifer Smith Nazaire, Country Representative, Catholic 
  Relief Services--Rwanda........................................    71

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri, and Chairman, Subcommittee on 
  International Organizations, Human Rights and Oversight: 
  Prepared statement.............................................     4
The Honorable Donald M. Payne, a Representative in Congress from 
  the State of New Jersey, and Chairman, Subcommittee on Africa 
  and Global Health: Prepared statement..........................     9
The Honorable Patricia Haslach: Prepared statement...............    15
The Honorable William Garvelink: Prepared statement..............    21
William H. Danforth, Ph.D.: Prepared statement...................    41
Mr. Gerald A. Steiner: Prepared statement........................    50
Hans Herren, Ph.D.: Prepared statement...........................    58
Ms. Evelyn Nassuna: Prepared statement...........................    67
Ms. Jennifer Smith Nazaire: Prepared statement...................    73

                                APPENDIX

Hearing notice...................................................    94
Hearing minutes..................................................    96
The Honorable Russ Carnahan: Material submitted for the record...    97
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Prepared statement.............................    99
Written responses from the Honorable William Garvelink to 
  questions submitted for the record by the Honorable Ted Poe....   100
The Honorable William Garvelink: Feed the Future Guide: A Summary   102


              OVERSIGHT OF THE FEED THE FUTURE INITIATIVE

                              ----------                              


                         TUESDAY, JULY 20, 2010

      House of Representatives,            
          Subcommittee on International            
            Organizations, Human Rights and        
                                  Oversight and    
          Subcommittee on Africa and Global Health,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 1:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Russ Carnahan 
(chairman of the Subcommittee on International Organizations, 
Human Rights and Oversight) presiding.
    Mr. Carnahan. Good afternoon. My name is Russ Carnahan. I 
want to call this joint subcommittee hearing to order, the 
joint meeting of the Subcommittee on International 
Organizations, Human Rights and Oversight and the Subcommittee 
on Africa and Global Health.
    I appreciate our panels here today. The topic of this 
hearing is Oversight of the Feed the Future Initiative. We are 
likely, I want to say upfront, likely going to be interrupted 
by votes we think around 2 o'clock or 2:30. We will try to get 
as far as we can through the first panel so we can take up the 
second one as well.
    I want to start with opening statements from our chairs and 
ranking members with us here today, and then we will hope to 
get through our witnesses quickly.
    I grew up on a farm in southern Missouri, and one of the 
first lessons I learned was from loading hay on a farm wagon as 
a teenager after the first load fell off because we didn't have 
the foundation laid properly. I am pleased that today we are 
able to talk about the strong foundation that we are building 
to address global hunger and food security with the 
administration's Feed the Future Initiative.
    At the G-8 Summit in July, 2009, global leaders committed 
to ``act with the scale and urgency needed to achieve 
sustainable global food security.'' President Obama pledged at 
least $3.5 billion for agriculture development and food 
security over 3 years, which has helped to leverage $22 billion 
in international funding.
    It is a moral issue today that 1 billion people, nearly 
one-sixth of the world's population, suffer from chronic 
hunger. Each year, more than 3.5 children die from 
undernutrition.
    But fighting hunger is not only a moral issue. Fighting 
hunger also creates jobs for people here at home. In my home 
State of Missouri, agricultural exports support around 37,000 
jobs, both on and off the farm, in food processing, storage, 
and transportation. Through emergency food aid programs, U.S. 
farmers have benefited economically from donating surplus U.S. 
food.
    Under the Feed the Future framework, the goal is to build 
the capacity for poor economies to produce and purchase local 
agricultural supplies as well as trade in international 
markets. The talented employees of Missouri organizations such 
as Monsanto, the Donald Danforth Plant Science Center, the 
Missouri Botanical Garden, and our local universities are 
working with farmers and research institutions to increase 
yields and incomes in Africa, Latin America, and Asia. They 
will have a long-term benefit to the U.S. economy as well, 
growing middle classes in foreign countries to buy more U.S. 
products, and that is good for all of our economy.
    Feeding the future, the goal of this initiative, will be no 
easy task. By 2050, the population is expected to reach 9 
billion worldwide. To feed the growing population, farmers will 
need to produce more food in the next 40 years than they have 
in the past 10,000 years combined.
    We must catalyze research and innovation to meet this 
challenge. We will need to focus on breeding, biotechnology, 
and agronomic practices. Some African producers are reluctant 
to use biotechnologies due to concerns that some countries in 
Europe--one of its primary export destinations--will not accept 
genetically modified foods. We must use smart power through our 
diplomatic and trade missions to end unfair trade restrictions.
    The International Organizations, Human Rights and Oversight 
Subcommittee hosted a hearing on ``Women as Agents of Change'' 
last month. Women farmers produce more than half of all food 
that is grown in the world. It is often cited that women 
farmers produce up to 80 percent of the food in Africa, 60 
percent of the food in Asia, and women are far more likely than 
men to spend their income improving their family's access to 
health, education, and nutrition.
    This initiative is unprecedented in its focus at lifting 
the incomes of women, and I look forward to hearing more about 
how the metrics will be disaggregated by gender.
    As the administration prepares to invest $3.5 billion in 
taxpayer resources over the next 3 years, I am also concerned 
about the potential for waste, fraud, and abuse. I have seen 
far too little contracting and grants managed and far too much 
corruption and waste. I appreciate the ``whole of government'' 
approach of this initiative--State, USAID, and Department of 
Agriculture, Treasury, U.S. Trade Representative, and the 
Millennium Challenge Account, all working together.
    However, based on previous oversight hearings and stories 
of ``adhocracies'' out of control, I am skeptical about the 
ability of these agencies to align resources, avoid 
duplication, conduct international oversight, and successfully 
manage taxpayer dollars. In order to get the most bang for our 
buck, there is a need for strong monitoring and evaluation.
    In a speech May 20, Administrator Shah said this initiative 
will reach 40 million people over 10 years, increasing their 
incomes by more than 10 percent a year; and the U.S. Government 
expects to reach 25 million children directly with nutritional 
interventions that will prevent stunting in 10 million 
children. These are bold and worthy goals, but I look forward 
to seeing how progress will be measured and reported. I applaud 
the initiative of the administration on this critical issue.
    After initial failure at my stacking hay on that wagon 
years ago, I just wanted to make sure the foundation being laid 
for the future of this program is sound.
    I want to now recognize the chairman of the Africa and 
Global Health Subcommittee, Chairman Don Payne of New Jersey, 
for his opening remarks.
    I stand corrected. We are going to recognize the ranking 
member of that subcommittee, my good friend from New Jersey, 
Congressman Chris Smith.
    [The prepared statement of Mr. Carnahan follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. Thank you very much, Mr. Chairman--both Mr. 
Chairmen; and I want to welcome our two distinguished 
ambassadors and look forward to your testimony.
    This is a very important hearing to do the oversight that 
is necessary on the Feed the Future, a very exciting initiative 
that hopefully will help bring food and mitigate the global 
problem, especially in the 20 target countries, where food 
insecurity is absolutely rampant.
    According to the U.N. Food and Agricultural Organization, 
people are food insecure when they do not have enough physical, 
social, or economic access to sufficient, safe and nutritious 
food to meet their dietary needs and food preferences for an 
active and healthy life. The FAO's 2009 report, The State of 
Food Insecurity in the World, noted that the decline in the 
numbers of chronically hungry people that was occurring some 20 
years ago has been reversed, largely due to less available 
official developmental assistance devoted to agriculture.
    That tragic trend, combined with the current global food 
and economic crisis, has resulted in an estimated 1 billion 
undernourished people around the world. The majority of those 
who lack food security, an estimated 642 million, live in Asia 
and the Pacific. Sub-Saharan Africa also has a large number, at 
265 million, and has the highest prevalence, at one out of 
every three persons undernourished.
    It is disturbing to note that developed countries are not 
immune from this deficiency. We have around 15 million people 
living in our own midst who are food insecure.
    It is shocking to hear that hunger and undernutrition kill 
more people globally than HIV/AIDS, malaria, and tuberculosis 
combined. Hunger and malnutrition are the underlying causes of 
death of over 3.5 million children every year, or more than 
10,000 children every day.
    Poor households in developing countries currently are 
facing a particularly devastating challenge to food insecurity 
for two reasons. One is the global nature of the economic 
crisis, which reduces the availability of coping mechanisms 
such as currency devaluation, borrowing or increased use of 
ODA, or migrant remittances that could otherwise be available 
if only a certain region or regions were impacted.
    Another is the food crisis that preceded the economic 
crisis, which has already placed poor households in a very weak 
position.
    Several initiatives have been announced over the past few 
months to galvanize international action to address this 
crisis, The Global Partnership for Agriculture and Food 
Security announced in Italy by the G-8 in which summit leaders 
in other countries and organizations established the goal of 
mobilizing more than $20 billion over the next 3 years, in 
particular to promote sustainable production and world economic 
growth. Additional countries have since pledged an additional 
$2 billion to this effort.
    Unfortunately, there are reports that up to one-half to 
two-thirds of that commitment is actually existing aid that has 
merely been repackaged; and I would ask our two distinguished 
ambassadors if they could address that issue: How much of this 
is brand new money from the United States' point of view and 
from the other nation donors?
    The G20 summit held in Pittsburgh in September endorsed the 
initiative and also called for the establishment of a World 
Bank Food Security Trust Fund. The purpose of this fund will be 
to boost agricultural productivity and market access in low-
income countries by financing medium- and long-term 
investments.
    Later that month, the U.N. Secretary General and the 
Secretary of State, Hillary Clinton, issued a joint statement 
in which they agreed to build on support for the global 
partnership.
    The Secretary of State also released a consultation 
document at the end of September seeking the views of numerous 
interested parties with respect to a proposed strategy to 
address global hunger and food security. I commend the 
Secretary for emphasizing the importance of input from small-
scale farmers and related agricultural producers in that 
consultation process.
    I would also ask her to be sure to include--and I am sure 
our ambassadors can speak to this--as to whether or not the 
faith-based organizations, the international nongovernmental 
organizations, and, of course, always civil society at the 
indigenous level are also contributing, particularly to the 
formation of the plans at the country level.
    Again, I want to thank the two chairmen for calling this 
hearing and yield back the balance of my time.
    Mr. Carnahan. Thank you.
    I next want to recognize Chairman Payne.
    Mr. Payne. Thank you very much. Thank you for joining us 
here, all of you in the audience, for this very critical and 
important joint hearing, Oversight of the Feed the Future 
Initiative.
    Let me begin by thanking Chairman Carnahan of the 
Subcommittee on International Organizations, Human 
Rights<greek-l>, deg. and Oversight for initiating this 
hearing. I also thank our distinguished witnesses, and I look 
forward to a productive discussion.
    The number of people, as we have heard, who go hungry each 
day has climbed to over 1 billion over the last few years. The 
United Nations Secretary-General Ban Ki-Moon reported the 
proportion of undernourished people has risen as well. This 
flies directly in the face of the first Millennium Development 
Goal to cut in half the proportion of hungry people by 2015. 
Therefore, there is perhaps nothing more important we can be 
discussing today than what the United States is doing to 
address the food insecurity of nearly one-sixth of the world's 
population.
    Food security is a critical component of development and 
has always been a top priority of mine as chairman of the 
Subcommittee on Africa and Global Health. The subcommittee has 
held six hearings, including this one that we are doing 
jointly, focused on food security since 2007. The last such 
hearing was held last October. It also focused on the Obama 
administration's Food Security Initiative, now, as we all know, 
called Feed the Future, which Secretary of State Hillary 
Clinton unveiled at the U.N. General Assembly last September.
    In addition to the hearings that we have had, I traveled to 
the Africa Growth and Opportunity Act Forum in August 2009 in 
Nairobi, Kenya, and traveled with Secretary of State Hillary 
Clinton and Secretary of Agriculture Vilsack. As we talked 
about the importance of this program, we visited farms in rural 
Kenya, visited research institutions in Kenya; and so we know 
that this is really a true priority of this administration.
    I have also requested six GAO reports in recent years to 
evaluate how U.S. funds were be used to address food security 
around the world, and particularly in Africa. I commend 
President Obama for encouraging this bold initiative and 
Secretary Clinton, who has taken this on as a major priority.
    I am also pleased that Ambassador Garvelink and Ambassador 
Haslach at the State Department have been appointed as deputy 
coordinators for this initiative, both with outstanding 
backgrounds; and so I certainly look forward to their 
announcement of a coordinator but look forward to their 
leadership in their new roles.
    The Feed the Future Initiative builds upon the commitments 
made at the July 8 G-8 summit in L'Aquila, Italy, where 
countries agreed to $20 billion over a 3-year period. The 
United States said up to $3.5 billion would go toward the 
Global Partnership for Agriculture and Food Security. 
Initiatives were to address the root causes of hunger that 
limit the potential of millions of people and establish a 
lasting foundation for change by leveraging our resources with 
country owned plans and multiple stakeholder partnerships.
    It will also have a strong emphasis on the role of women 
and empowering them with the education, tools, and assistance 
they need. Women, as we all know, make up a majority of 
smallholder farmers; and they are the engine for development in 
every society and in particular in rural societies in Africa 
and the developing world.
    According to the Food and Agriculture Organization (FAO) of 
the United Nations, it will take a 70 percent increase in 
global food production to feed the world's population in 2050, 
when it is expected to reach 9.1 billion due to both population 
growth and rising incomes.
    According to the FAO, 25,000 people die each day due to 
hunger and related causes. In Africa alone, 265 million people, 
or nearly one-third of the continent's entire population, 
suffers from hunger. This is simply unconscionable, 
particularly when the continent possess such vast, uncultivated 
agriculture resources.
    According to the U.N. Environment Programme, 21 percent of 
Africa's land mass is suitable for cultivation. However, only 7 
percent of this land is currently irrigated. As a result, 
African countries spend billions of dollars on food imports in 
addition to receiving food aid. Moreover, the proportion of the 
Africa population living on less than $1 a day increased from 
47.6 percent in 1985 to 59 percent in 2000, certainly going in 
the wrong direction.
    We can and we must do more to end hunger. Africa has both 
the natural and human resources to dramatically increase 
agricultural production. In fact, 203 million people in Africa, 
or 56.6 percent of the labor force, are engaged in agriculture. 
We must focus on leveraging our resources to ensure our food 
security. I believe Feed the Future is an important step toward 
achieving food security and, therefore, the uplifting of 
millions of people in Africa and around the world. I look 
forward to continuing to work with the administration to make 
the dream of food security in the world a reality.
    Again, let me thank the panel for coming and the chairman 
for calling this hearing.
    [The prepared statement of Mr. Payne follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Thank you, Chairman Payne.
    Now I want to recognize the ranking member of the 
International Organizations, Human Rights<greek-l>, deg. and 
Oversight Subcommittee, Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I guess today we are talking about a proposal, Feed the 
Future, that is proposing a $1.6 billion increase--I guess we 
will find those details out--in current spending, which is a 40 
percent increase in funds that are directed at aiming to 
accomplish this goal of feeding people who are hungry.
    Let us just note as we begin our discussion, as we should 
begin every discussion in Congress, is that last year we spent 
$1.5 trillion more than we took in in this government. And for 
2 years in a row our deficit in this country will be $1.5 
trillion, in which all these young people out there will spend 
the rest of their lives paying interest on.
    So as we discuss any issue we have to, especially when 
there is a supposedly 40 percent plus-up, we need to discuss 
whether or not we really should be borrowing more money from 
China in order to give to the recipients of this program. And I 
will be very interested in hearing whether or not that is a 
justified expense.
    I personally over the years have noted a relationship 
between suffering and poverty and people who are hungry and 
people who live in the worst kind of degradation that there is 
a relationship between their suffering and the level of freedom 
and integrity in their country. If they lack freedom and their 
government has no integrity, they are much more likely to 
suffer; and I do not fully appreciate or understand how 
providing more money for a dictatorial regime is going to 
change that. In fact, a strategy for the future may well be 
that the United States should cut off relations with 
dictatorships left and right and should require a certain level 
of integrity in a government before we give any money to that 
government or even involve ourselves in a program aimed at the 
people who live in that society. Because, quite often, as we 
know, funds that are going to make the lives easier on those 
people who are suffering quite often is stolen from them by 
their own government.
    Honest government and enterprise, unfettered by corruption, 
will dramatically change the plight of people who linger in 
this type of suffering. I don't believe transfers of wealth 
from our richer countries of the world to the poorer countries 
of the world will change their plight at all.
    So I am interested, for example, when we take a look at 
many countries in which starvation is a factor, we can see that 
a few years before certain government people took over that 
there were surpluses of food. I guess Zaire is probably the 
best example. That used to be the breadbasket of Africa and now 
is rapidly becoming a poverty stricken country in which their 
own people lack nutrition.
    So with these factors it is very easy for us to want to get 
together and express how concerned we are for the poor people 
of the world. And we should be concerned about them. But using 
that heartfelt expression as a means of plotting out a strategy 
that requires a hard-headed approach to actually making things 
better, I think that we are going to have to make sure we take 
a look when people ask us to spend more money and borrow more 
money from China in order to do it, whether or not there is 
enough change in this program to say that it will be successful 
compared to all the other programs I have seen in the last 22 
years that have exactly the same purpose but have led to 
nowhere.
    So, thank you, Mr. Chairman, and I will be listening.
    Mr. Carnahan. Thank you.
    We have two other members who have joined us who I want to 
recognize each for up to 1 minute.
    Congresswoman Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Today's hearing is important. It is important because food 
assistance is about so very much more than hunger. Food 
security can derail, actually, our other foreign assistance 
goals. Kids who are hungry don't learn. Pregnant mothers who 
are hungry deliver babies who are ailing and who suffer. AIDS 
patients who are hungry can't process the drugs to keep them 
healthy. And hungry people in conflict zones see increased 
rates of instability and warfare.
    So ensuring that our food aid gets where it needs to be is 
essential in meeting our foreign assistance outcome goals. So a 
healthy and safer world for all would be the results of, I 
hope, what we are going to learn from the witnesses today. I 
look forward to hearing from all of you.
    Thank you, Mr. Chairman.
    Mr. Carnahan. Thank you.
    Now I would like to recognize Congresswoman Watson of 
California for 1 minute.
    Ms. Watson. Thank you so much.
    I also want to thank you and Chairman Payne for this 
meeting that will look at the Feed the Future Initiative.
    The Feed the Future Initiative, released this May, builds 
on the principles for sustainable food security endorsed at the 
2009 World Summit on Food Security, investing in country led 
plans, a comprehensive approach to food security, strategic 
coordination, leveraging multilateral institutes, and delivery 
on sustained and accountable commitments; and I want to commend 
our world's leaders for establishing these guiding principles.
    Food is a basic human necessity and human right. But 
ensuring the world's poor are finally food secure will require 
a multifaceted solution. This includes biotechnology that will 
help crops grow in stressed environments. It also means 
technical assistance in teaching farmers sustainable farming 
practices. Food security also includes building roads so 
farmers can get their foods to market before they rot. For the 
millions of urban poor, it means ensuring access to reasonably 
priced fresh produce.
    It is very, very important that we take time out to find 
out how we can capture the bodies and minds of people when you 
feed them and they can be secure that they will have another 
meal, rather than trying to do that with guns and bullets.
    Thank you very much, Mr. Chairman.
    Mr. Carnahan. Thank you.
    I would like to now introduce our administration witnesses. 
For the first panel, Ambassador Patricia Haslach serves as 
Deputy Coordinator for Diplomacy in the Office for Coordinator 
for the Global Hunger and Food Security Initiative at the State 
Department.
    Prior to her current position, she served as Assistant 
Chief of Mission for Assistance Transition at the U.S. Embassy 
in Baghdad. From 2007-2009, she served as Ambassador to the 
Asian-Pacific Economic Corporation Forum and headed the Friends 
of the chair Group for Food Security. She also served as the 
Director, Office for Afghanistan, from 2002 to 2004. She began 
her career with the Federal Government at the U.S. Department 
of Agriculture.
    Joining her is Ambassador William Garvelink. He serves as 
Deputy Coordinator for Development at the Office of Coordinator 
for Global Hunger and Food Security Initiative at USAID. He is 
a 31-year veteran of USAID, who most recently served as U.S. 
Ambassador to the Democratic Republic of the Congo. He is a 
member of the Senior Foreign Service, with the rank of Minister 
Counselor. Before joining AID in 1979, he was a professional 
staff member on the Subcommittee on International 
Organizations--this committee. So welcome back.
    I am pleased to recognize Ambassador Haslach to start.

STATEMENT OF THE HONORABLE PATRICIA HASLACH, DEPUTY COORDINATOR 
FOR DIPLOMACY, OFFICE OF THE COORDINATOR FOR THE GLOBAL HUNGER 
     AND FOOD SECURITY INITIATIVE, U.S. DEPARTMENT OF STATE

    Ms. Haslach. Thank you, Chairmen Carnahan and Payne, 
Ranking Members Rohrabacher and Smith, and members of the 
committee. Thank you for this opportunity to speak with you 
about the Feed the Future, the administration's global hunger 
and food security initiative.
    Ambassador Garvelink and I began our work as deputy 
coordinators this past May. As the Deputy Coordinator for 
Diplomacy, I oversee donor coordination as well as engagement 
with bilateral and multilateral partners and international 
organizations.
    Let me begin by providing some background for Feed the 
Future. President Obama, Secretary Clinton, and USAID 
Administrator Shah have articulated a new vision for 
development for the United States, one that embraces 
development as a strategic, economic, and moral imperative that 
is as central as diplomacy and defense to solving global 
problems and advancing America's national security.
    The strategy for Feed the Future exemplifies this new 
vision for development. It starts with the recognition that 
food security is not just about food but it is also about 
security--national security, economic security, environmental 
security, and human security.
    In addition to alleviating instability fueled by hunger and 
desperation, investing in farmers, especially women, can lead 
to greater economic growth and prosperity for all. At the same 
time, by creating vibrant markets, our efforts benefit American 
companies and other enterprises seeking customers and 
investment opportunities abroad.
    My full written statement has been submitted for the 
record. Here I would like to briefly review the diplomatic 
components of Feed the Future covered in greater detail in my 
written statement--donor accountability, donor coordination, 
and whole of government action.
    First, in the year since global leaders announced their 
renewed commitment to agricultural development and food 
security at L'Aquila's G-8-plus summit, we have made 
significant progress in holding donors accountable. For 
example, we participated in a G-8 accountability report, issued 
a few weeks ago, which includes the description of the $22 
billion in donor pledges spurred by L'Aquila. Countries, 
including the United States, Australia, Spain, and Canada 
submitted significant portions of additional resources to food 
security.
    The report also illustrates the limited capacity of some 
countries to commit new resources, highlighting the critical 
importance of strategic coordination to achieve greater 
efficiency and greater impact.
    Perhaps most importantly, our work around accountability 
emphasizes that this is not just a U.S. initiative but rather a 
global initiative. Other countries recognize that it is in our 
collective interest to tackle the root causes of hunger and 
poverty.
    Beyond donor accountability, we have increased donor 
coordination at country, regional, and global levels. 
Developing countries have initiated inclusive multi-stakeholder 
processes to develop comprehensive national agriculture and 
food security investment plans. These plans improve 
coordination efforts, maximize synergies among governments, 
development partners, civil society, and the private sector. In 
Africa, the comprehensive Africa Agriculture Development 
program has played the leading role in the investment plan 
process.
    This past June, Ambassador Garvelink and I traveled to 
participate in one of the high-level CAADP events where 12 
African countries and the regional body Economic Community of 
West African States presented their country investment plans. 
The meeting at Dakar, Senegal, had high-level participation 
from 13 developing partner nations, dozen of institutions, 
including the Rome-based agencies, the multilateral development 
banks, and representatives from civil society and the private 
sector.
    In Asia, the U.S. provided critical support to Bangladesh. 
And I was recently in Manila, where I attended an Asian event 
hosted by the Asian Development Bank, where they, too, are 
starting to focus, like Africa, on the issue of food security.
    At the global level, we have worked with the G20 countries 
and the World Bank and other organizations to set up the Global 
Agriculture and Food Security Initiative. The U.S. pledge of 
$475 million has mobilized pledges and contributions to this. 
We continue to seek further contributions.
    Finally and most importantly, I would like to highlight how 
whole of government action is integral to Feed the Future. We 
have a working committee from State, USAID, USDA, the 
Millennium Challenge Corporation, Treasury, Peace Corps, and 
others in regular meetings. We are one team for Feed the 
Future. The members of the interagency team bring their 
expertise to bear on our shared task of sustainably reducing 
poverty and hunger. For example, we are drawing on USDA's 
experience and expertise in agriculture statistics to help 
establish the baselines in order for us to be able to monitor 
this. Finally, we are working with MCC to identify places where 
our programs can build on their existing investments in 
infrastructure and land tenure.
    Thank you very much.
    [The prepared statement of Ms. Haslach follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Thank you.
    Next, Ambassador Garvelink.

     STATEMENT OF THE HONORABLE WILLIAM GARVELINK, DEPUTY 
COORDINATOR FOR DEVELOPMENT, OFFICE OF THE COORDINATOR FOR THE 
  GLOBAL HUNGER AND FOOD SECURITY INITIATIVE, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Garvelink. Thank you.
    Chairman Carnahan, Chairman Payne, Ranking Member 
Rohrabacher, Ranking Member Smith, and other members of the 
subcommittee, thank you for holding this hearing on this 
important challenge of feeding the world's population.
    My full written statement has been submitted for the 
record. However, I would briefly like to highlight a few 
points.
    A primary goal of the President's Feed the Future 
Initiative is to accelerate progress toward the Millennium 
Development Goal. I spent much of my career in the U.S. 
Government working on humanitarian issues and know firsthand 
the value of U.S. leadership in delivering food aid to 
alleviate the most acute suffering, but addressing hunger over 
the long term requires that we rebalance our efforts, with 
greater emphasis on sustainable development solutions. We know 
that assistance, while essential, cannot bring about 
development in the absence of favorable domestic policies, 
international trade flows, private as well as public 
investment, and technology and innovation that create 
opportunities for lasting economic growth.
    Through Feed the Future we will be approaching the issue of 
hunger and poverty in a comprehensive way consistent with the 
United States' commitment to preserving and accelerating the 
momentum toward the MDGs.
    In lieu of getting too deep into the details, I would like 
to offer for inclusion in the record the Feed the Future Guide, 
which outlines the strategic approach and implementation 
structures of the initiative. Let me outline, however, three 
key aspects that are truly transforming our approach.
    First, as Ambassador Haslach mentioned, is the coordination 
and country led planning process. These reviews represent a big 
step forward in the leadership and accountability of both 
developing countries and donors alike. We are looking to invest 
in areas where the United States has a comparative advantage 
and to collaborate and not duplicate efforts. The result is a 
roadmap that leverages international investment, mobilizes 
partner country resources, and helps ensure that food security 
resources are managed transparently and responsibly.
    In Rwanda, for example, this coordinated and country led 
process already has mobilized 90 percent of the investments 
outlined in the government's country investment plan, a plan 
for agricultural development that made hard choices about 
priorities, given scarce resources, and will now link those 
choices to results.
    The second area critical to the new approach within Feed 
the Future is combating child and maternal undernutrition. Each 
year, more than 3.5 million children and tens of thousands of 
mothers die from undernutrition, which costs developing 
countries up to 3 percent of their annual Gross Domestic 
Product.
    Women are a pivotal force behind achieving a food-secure 
world. In most developing countries they produce between 60 and 
80 percent of the food; and when gains in income are controlled 
by women, they are more likely to be spent on food and 
children's needs. By investing more in women and addressing 
undernutrition holistically, we can amplify benefits across 
families and generations.
    The third area is innovation. Drawing on America's long 
tradition of development through innovation, we are making 
significant progress in agricultural research. We know that 
investing in agricultural research today contributes to the 
growth and resilience of the food supply tomorrow. We will 
focus globally, addressing some of the gaps in the 
international research system, and nationally on constrained 
country systems to strengthen research and extension to allow 
science, technology, and innovation to better address local 
needs and to adapt and deliver new advances to the hands of 
small farmer producers.
    Our commitment to sustainability and innovation will be 
underpinned by a relentless commitment to measuring results. To 
this end, we will upgrade our institutional capacity to monitor 
and measure development outcomes as well as support and learn 
from best practices and evaluation.
    Finally, I will mention that U.S. Agriculture, through a 
rich history of sharing expertise and investing in development, 
has a significant opportunity to expand partnership with the 
developing world as we move forward with this exciting 
initiative. The health and prosperity of the world's poor and 
vulnerable and, by extension, our own security and prosperity 
will ultimately be determined not by the promises we make but 
by the results we generate together.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Garvelink follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Carnahan. Thank you both.
    I want to start off the questions with Chairman Payne. I 
want to yield 5 minutes to Chairman Payne.
    Mr. Payne. Thank you very much.
    I certainly look forward to be working with you as you move 
forward on the new initiative.
    Let me just ask this. The Feed the Future Initiative is 
taking a ``whole of government'' approach. How will the State 
Department coordinate with other agencies responsible for 
programs and activities related to international agriculture 
development, nutrition, and food security, such as USDA, MCC, 
Department of Treasury, and USAID? And, specifically, what will 
be the mechanism for interagency coordination and 
implementation of projects on the ground, which is also 
important to get an organization here, but then how do we 
translate that in individual countries? And what, if any, are 
the funding implications for a whole government strategy?
    I will ask either one of you or both of you to comment.
    Ms. Haslach. I would like to concentrate on the overall 
U.S. whole of government approach, and I would like to ask if 
Ambassador Garvelink could address the country led process.
    Feed the Future will be led by the U.S. Global and Food 
Security Coordinator. The Coordinator will provide strategic 
policy and budget direction that spans the whole of U.S. 
Government and resources for Feed the Future.
    The goal is to have this Coordinator in place at some 
point, but, in the meantime, Ambassador Garvelink and I are 
moving forward on setting up a one team for Feed the Future 
that includes colleagues from--expertise from the U.S. 
Department of Agriculture, Treasury, from the Peace Corps, from 
the Millennium Challenge Corporation, and others.
    We meet regularly, and we have staff that coordinate 
regularly on the Feed the Future Initiative. We do not see 
ourselves in fact as separate agencies any longer. We see 
ourselves as part of one team, the Feed the Future team.
    Thank you.
    Mr. Garvelink.
    Thank you.
    If I could just add a couple of comments about how this 
program operates on the ground.
    The countries where we are going to provide assistance 
under Feed the Future develop a country investment plan, and 
that is a plan that is put together by the government with 
participation of all stakeholders, civil society, NGOs, other 
organizations that explains how they will address agricultural 
food needs in their country. That plan is evaluated by the U.S. 
Government in the particular country.
    In each country where we are going to provide assistance, 
we have a country coordinator; and that country coordinator 
represents all of the United States Government agencies that 
would be involved in responding in that country. Some countries 
have the Millennium Challenge Corporation; some don't. But the 
country coordinator in the countries we are interested right 
now is the USAID Mission Director for the time being. That 
individual will coordinate with Department of Agriculture, with 
Treasury, with USDA, and any other U.S. Government agencies 
that are operating in that country and design a plan that is 
supported by the entire U.S. Government to help meet the needs 
identified in the country investment plan.
    Mr. Payne. One last question, since the time is running 
out.
    USAID, as you know, over the recent past, last 10 years or 
so or more, has relied heavily on contractors. The offices have 
shrunk. Is there a goal to go back to trying to have staff 
persons from USAID, U.S. Department of State that can do the 
jobs, rather than contracting out, which we find is just done 
whether it is in developing countries and even in the Middle 
East or Afghanistan or Iraq. It is the contractors we hear 
about. I wonder, do we have any expertise or are we going to 
develop this?
    Mr. Garvelink. As you may know, the expertise in 
agriculture has declined over the past 20 or 30 years in USAID 
and in other development agencies. I think it was the shock to 
the international community of the dramatic increase in food 
prices in 2007 and 2008 that made us all realize that we may 
have made a mistake by not continuing to emphasize agricultural 
development. So, as a result of that, we are working very hard 
right now to expand the U.S. Government's expertise in 
agriculture.
    So, to meet the demands of this new initiative, we are 
turning to AID for their agricultural experts, and we are 
recruiting more through their new entry program. We are working 
very closely with the USDA and their experts. And we are 
working with personal services contractors to fill gaps as 
well. We are working very hard to increase the number of 
agricultural specialists so we will have sufficient numbers 
over the years to reestablish ourselves as a leader--the U.S. 
Government as a leader in agricultural development.
    Mr. Carnahan. Thank you. The gentleman's time has expired.
    I now want to recognize the gentleman from California, Mr. 
Rohrabacher, for 5 minutes.
    Mr. Rohrabacher. So is this $1.6 billion of new money that 
you are looking for for the program?
    Ms. Haslach. President Obama was seeking $3.5 billion over 
3 years. So this is part of that pledge and commitment that we 
made at L'Aquila a year ago.
    Mr. Rohrabacher. That is $3.5 billion of new money?
    Ms. Haslach. Correct.
    Mr. Rohrabacher. Taking the money we have already allocated 
year after year after year after year for helping people in 
poor countries. This is new money on top of that.
    Ms. Haslach. This is a budget request for a new initiative 
that hopes to bolster contributions from other contractors as 
well. It is not just a U.S. initiative or commitment.
    Mr. Rohrabacher. I got you. Again, what countries have been 
targeted for this?
    Mr. Garvelink. Well, the initial set of countries where we 
are looking at--and there is a system that was undertaken to 
identify these countries in terms of the need, the poverty 
level, the commitment of the government, involving the 
stakeholders and these sort of things. There are 20 countries 
that have been identified initially. Twelve of them are in 
Africa. Four of them are in Asia.
    Mr. Rohrabacher. Maybe you can read them off right now.
    Mr. Garvelink. It is Ethiopia, it is Kenya, it is Liberia, 
it is Rwanda, it is Tanzania, it is Mali, Malawi, Mozambique, 
Zambia, Ghana, and Senegal. And I think those are the 12. Those 
are the ones in Africa. Uganda is another one.
    And in Latin America it is Guatemala, Honduras, Nicaragua 
and Haiti.
    Then in Asia it is Bangladesh, Nepal, Cambodia, and 
Tajikistan.
    Mr. Rohrabacher. What was the one before Tajikistan?
    Nepal. Didn't quite catch that.
    So countries like Ethiopia, which is first on your list, I 
know there are several members of this committee who worked 
with me on Ethiopia and found that government to be totally 
unacceptable to democratic standards. They used aid that we 
gave them, especially some foreign aid with Jeeps and guns, not 
to defend their society but instead to overthrow the results of 
an election and put all the people who won the election in 
jail. Now why do we think that a country like Ethiopia, which 
obviously has a lot of problems with oppression--or I don't 
know what rank they rank with the State Department, but it 
seems at least unacceptable to the two of us on this 
committee--what makes you think that they are going to do good 
by their own people?
    Ms. Haslach. Congressman, this is a country led initiative, 
but it is not just the country that is involved in this 
process. It is a consultative process that involves all 
stakeholders, civil society, woman farmers, as well as other 
partners in international organizations; and good governance is 
something that is also taken in consideration before financial 
commitments are made.
    Mr. Rohrabacher. I would suggest that without good 
government all of the rest of it is meaningless. So all of the 
great words that we have heard today, and very inspiring words 
about this new project, if it is not based on something we are 
going to work with good government--because bad government will 
undo everything you are saying.
    Now, again, is this $3.5 billion that we are going to give 
a portion of it to the people of Ethiopia, who are being 
oppressed by their own government, I might say a corrupt 
government that has taken property from its own people in an 
unlawful way--is that worth--the results, you think, are going 
to be worth borrowing that money from China in order to give to 
the Government of Ethiopia so that these young people here will 
be paying for the rest of their life on the interest on what we 
are borrowing?
    Ms. Haslach. Ethiopia has been identified as one of the 
possible focus countries, but there are a number of steps that 
the country will need to take in order to get to the point. 
They, first of all, have to have a country investment plan, 
which they do not have yet. But we do have some successful 
examples of countries that have moved forward with a country 
investment plan, and a good example of that would be Ghana.
    Mr. Rohrabacher. Thank you, Mr. Chairman.
    I would just like to note again that my own trepidation is 
about borrowing more money in order to provide direct food aid 
to countries in which are run by questionable governments. And 
almost all the people who are in real abject poverty find 
themselves under the rule of a government that is corrupt and 
nondemocratic. So I am skeptical that this would be a program 
that would be worth borrowing more money from China in order to 
finance.
    Thank you, Mr. Chairman.
    Mr. Carnahan. Thank you.
    I now recognize myself for 5 minutes.
    I guess I want to thank the witnesses for their overview 
and really making the point that this is more than just about 
food. It is about security in so many aspects--national 
security, economic security, human security, environmental 
security.
    But I do want to follow up on my colleague Mr. 
Rohrabacher's question. And that is, we do have a 
responsibility in these economic times, but especially to be 
sure that we are getting value for these investments, and 
certainly we have listed a number of values that are important 
to us. But I would like you both to describe metrics that can 
be in place to measure how well we are making progress in these 
goals and oversight mechanisms to be sure we are watching that 
this is being done in an effective way.
    Ms. Haslach. Thank you.
    The results framework and the monitoring and evaluation 
components events of this program are critical. We couldn't 
agree with you more. We are working very closely with people 
who have worked for the Millennium Challenge Corporation and 
other such initiatives to set up a very tight monitoring and 
evaluation system based on--first of all, based on good data. 
And we are getting a lot of assistance from the interagency on 
this. In fact, the U.S. Department of Agriculture and 
institutes like IFPRI and others are providing us with good 
baseline data so we can be able to evaluate this.
    We are building teams both at the country level and as well 
in Washington to do this, and this will be part of our Feed the 
Future guidelines. If you go on our Feed the Future Web site, 
feedthefuture.gov, we will be adding to that a comprehensive 
assessment of how we will be doing monitoring and evaluation.
    Let me also point out that we have turned to our partners 
in the field, civil society and nongovernmental organizations 
who have been working at the country level and can provide us 
with a lot of guidance and insight. When we published the Feed 
the Future guide, it was a consultative process; and in fact we 
have been getting very, very good feedback from interaction in 
all the members of the nongovernmental organizations. They have 
actually been assisting us in helping to set this up.
    Gender is important. There are a number of different 
crosscutting issues that we are going to need to measure, and 
so we are committed to do doing that. We couldn't agree with 
you more that we want to see the resources spent properly.
    And this is not an entitlement program. Just because a 
country may be listed as a potential to receive funding under 
this initiative, there are a number of steps that the country 
has to take in order to get the resources. And if the resources 
are being misspent, they will be redirected to a country that 
is deserving and is part of this process.
    Thank you.
    Mr. Carnahan. Certainly, there is a case to be made that 
this could help leverage better results at the country level 
and leverage better collaboration and resources.
    But I guess the other question I had was with regard to 
measures to hold the other participating countries involved to 
that $22 billion commitment that has been made. Certainly that 
is important based on the U.S. commitment. But what efforts are 
under way to be sure that those other countries are held to 
their commitments?
    Ms. Haslach. Well, I am sure you saw that there was a 
recommitment at this year's G-8 that in fact the donors would 
live up to their pledge made last year for the full $22 
billion. But we see that just as the starting contribution. In 
fact, we have been seeking contributions to the Global 
Agriculture and Food Security Trust Fund that is being managed 
by the World Bank; and we very happy that a number of 
countries--Canada and Spain and others--and South Korea--have 
joined us in this multilateral trust fund. So every time we 
meet with the donors, every time we attend a function, we press 
them to live up to their commitments. And we mean new 
commitments, not recycled monies.
    Mr. Carnahan. If I could real quickly, because my time is 
running out, but very quickly, on the question of being sure 
that we are using the latest in innovations and technology to 
incorporate into these efforts, I would like you to elaborate 
on that.
    Mr. Garvelink. Well, it is our view that to expand 
agricultural production, as you have mentioned with the growing 
population, one of the ways not to do this is to tear down the 
rain forest in other parts of--places in Africa, which they 
tend to do to expand agriculture, but to increase innovation 
and use science and technology to expand the productivity of 
the land already under cultivation.
    So we are working very closely with the Department of 
Agriculture and their various research institutes to draw on 
the expertise that U.S. scientists have--the discoveries and 
innovations that U.S. Scientists have developed for the United 
States. And there are a lot of those innovations that can be 
transferred to developing countries in the developing world.
    There are programs that have been undertaken with Monsanto, 
with General Mills, with the Soybean Association, and other 
organizations to promote agricultural development and 
innovations in seed and other techniques that are being used 
throughout this initiative and will be highlighted whenever 
possible and relied on, largely from the Department of 
Agriculture and their experts.
    Mr. Carnahan. Thank you.
    I am going to next yield 5 minutes to the gentleman from 
New Jersey, Mr. Smith.
    Mr. Smith. Thank you, Ambassadors, for your testimony.
    Jennifer Nazaire, the country rep for Catholic Relief 
Services, points out in her testimony that CRS has had a 50-
year commitment to food security and other important issues in 
Rwanda and, I would note parenthetically, just about anywhere 
else where CRS is involved, where people are suffering. And she 
points out there is a key role for faith-based organizations 
and international NGOs to play.
    She points out as well--and I hope you don't hold it 
against her--when we find out there are cuts to the funding, 
she points out with regard to Rwanda, she was at the first 
signing of the Feed the Future ceremony on December 7th and 8th 
in '09 and there were no specifics on how we or even the local 
civil society partners would be involved in the government's 
plan for ag transformation to improve food security.
    She stated,

        ``The only interaction I had with the U.S. Government 
        delegation at this meeting was at coffee breaks during 
        which I approached them and introduced myself. I asked 
        whether there was an opportunity for international NGOs 
        to meet with some of the delegation outside of meeting 
        hours, but there was no follow up.''

    She points out that, in her view, USAID and other donors 
tend to see CRS and other international NGOs as mostly focused 
on subsistence and safety net ag and not cutting-edge leaders 
in integrated food security programing. However, international 
NGOs are doing significant amounts of these programs and have 
been doing it for decades.
    My first question would be: What role do you see? Why were 
they seemingly excluded from this country led planning process? 
And if you can provide either now or for the record exactly how 
are international NGOs, faith-based organizations, civil 
society CSOs, and the private sector being included in the 
country-led planning process in the 20 targeted countries. If 
you could provide for the committee how each of those are being 
integrated, it would help us in our oversight.
    Secondly, with regard to the 20 targeted countries, I am 
fully aware of the four criteria. I think they are good 
criteria that you have laid out. But could you provide to the 
committee a detailed country by country analysis as to exactly 
how the 20 were selected and how this integrated analysis is 
done so we can really look and say, okay, pick out a country. 
This is the process they went through. It helps us, again, to 
do our oversight.
    And then, what countries are or were on the bubble, like 
number 21, 22, 23, given more money or maybe a different set of 
circumstances, they too might get the additional benefits of 
the Feed the Future.
    And, finally, with regards to the Food for Peace initiative 
for which the administration requested $1.69 billion for Fiscal 
Year 2011, how is that going to be integrated, or coordinated 
is probably a better word, with Feed the Future in the 20 
targeted countries? Will it be working in a side-bar way? Will 
it be part of the country-led planning process? How does that 
all mesh together so we don't have a stovepipe type operation?
    Mr. Garvelink. Well, first of all, we will be glad to 
provide all of that information and we should be able to do 
that for you very quickly. I cannot comment specifically on the 
situation in Rwanda because I wasn't there. But a very 
important element of this process is the role of NGOs and civil 
society throughout all these planning stages and in 
coordination with our people on the ground and with our people 
here.
    As a matter of fact, at 10 o'clock this morning I was 
meeting with Interaction on these very issues of how we involve 
NGOs more deeply in our programs back here, in our activities 
back here, and with our missions on the ground with the country 
team in the various embassies and U.S. missions. So it is a 
very critical element to what we are doing, and we are 
insisting on that as we move through the approval process for 
these countries to receive higher amounts of resources from the 
U.S. Government, a critical element of this is to involve all 
stakeholders, and that is the private sector, that is civil 
society, that is NGOs, that is faith-based organizations, all 
these organizations together. So I can't comment exactly on 
what happened in Rwanda, but it is a very high priority and 
integral part of this whole process.
    Mr. Smith. I would respectfully ask you to look into the 
Rwanda situation, if you could, and get back to us. I would 
appreciate it.
    Ms. Haslach. I was actually the attache in India, so I very 
much value their contributions. So we will definitely get an 
answer to you. With regard--and we will get you more specifics 
about this, Congressman. But let me just say very briefly how 
countries were selected, and it is a combination of things. It 
is an art maybe, not a science, but it is based on, first of 
all, the level of need, the opportunity for partnership, that 
is very key, potential for agricultural-led growth, opportunity 
for regional synergies. That is one area we didn't discuss 
today, but the regional component is important. Resource 
availability. So those are the key areas, and we will get back 
to you on that.
    But I also want to stress, just because we have identified 
20 potential countries doesn't mean that every one of those 
countries is going to actually be able to meet the bar. This is 
a pretty high bar for countries to achieve. There is phase 1 
and phase 2. Phase 1 is sort of the capacity-building level 
where we are trying to help them get to phase 2. But unless 
they commit to the process themselves and unless it is a 
consultative process, they will not get to phase 2. So this is 
important. It is a little bit different than assistance 
programs where you commit the resources and they are there for 
life.
    I would also like to say that we are continuing to support 
for additional agriculture development and nutrition programs 
in up to 38 other countries. So what we are really talking 
about is having some kind of an impact in 60 countries. And I 
mentioned the strategic partners. We are also focusing on 
regional organizations such as ECOWAS and ones in Latin 
Americans and Asia as well. Thank you.
    Mr. Smith. Just a very quick follow-up on Mr. Rohrabacher's 
comment on Ethiopia. And I would hope, both Mr. Payne and I, 
Chairman Payne, when he was chairman and when I chaired the 
African committee, I introduced the Human Rights in Ethiopia 
Act. We are very concerned, and I think I speak for many 
members of the panel. President Meles certainly has crushed or 
tried to crush opposition opponents. He has thrown them into 
jail. We have never got an accounting for the killings that 
took place in Addis after the elections which were far less 
than free and fair. But I would be very interested, the NGOs 
that don't get funded in a country-led plan unless we put 
maximum pressure to make sure that certain faith-based as well 
as politically disenfranchised NGOs are included. Because, 
otherwise, if left up to him, they will be excluded. Thank you.
    Ms. Haslach. Thank you, Congressman. Perhaps, I would like 
to point out that the countries right now that we are working 
the closest with are Haiti, Bangladesh, Ghana, Rwanda, and 
Tanzania. Thank you.
    Mr. Carnahan. Thank you. And next I would like to recognize 
Congresswoman Woolsey for 5 minutes.
    Ms. Woolsey. Thank you, Mr. Chairman. I just want to dig 
just a little bit deeper on the sentiments of the questions 
that the last two members have asked.
    Just in general, how are you going to implement this so 
that we can ensure that Feed the Future just doesn't add 
another layer of bureaucracy to this need? I guess, with the 
Washington Post showing us what has happened to our 
intelligence overhead, we have to be so careful that we make 
sure.
    And in answering that, this is kind of a two-part question. 
You talked, you mentioned over and over about the NGOs being 
included in how the programs will be set up and what this will 
mean. How about the women that are the real deliverers of 
agriculture, the farmers themselves, and the people? I mean, 
tell us--give us an example of sitting down with women and 
talking to them about how this is all going to come about 
together.
    Ms. Haslach. Congresswoman, first of all, we really 
appreciate your support here on this.
    Maybe take the first question. I just finished a year in 
Iraq, and one of the most successful programs we had at a 
provincial reconstruction team up in the Kurdistan region was 
actually a project that we ran with women where we provided--
AID provided micro-finance loans, and they set up a dairy, a 
small dairy operation and used the milk products and sold the 
yogurt and made cheese. And these were widows; these were women 
that didn't have any other form of support. So I think these 
are the types of programs that we are aiming at.
    And I share your concern that we are creating yet another 
bureaucracy. In fact, when we come to meetings we tell everyone 
to check their agency and their cell phones at the door, 
because the stovepiping is what contributes, I think, to a lot 
of the duplication. I saw it in Iraq when I was sent there 
basically to try to get everyone to work together as one team, 
as opposed to having one group over here working on a democracy 
in governance program and another group in another part of the 
embassy working on a democracy in governance program. So our 
aim is to work together as one Feed the Future team. Thank you.
    Mr. Garvelink. If I could just add a comment or two about 
what is going on or will go on, on the ground, in the various 
countries. Our country team at the U.S. mission will manage 
this process, and the lead person is our Feed the Future 
coordinator, at this point in time USAID directors. And they 
will make sure that everybody, like we are trying to do here, 
is working together and not duplicating or leaving any gaps in 
the programs that are being put together. And they will work 
very closely with the host government, but they also work with 
the civil society that is on the ground there. They meet 
regularly with those individuals and work very closely with 
them, whether it is CRS or World Vision or some of the--
Lutheran World Relief or some of the other organizations.
    There is regular meetings between the U.S. country team 
there and those operations. And so they will be watching these 
programs very closely and monitoring them, and the Feed the 
Future initiative will be part of the larger U.S. Government 
assistance program in that country. It is not a parallel 
activity, or it is--it will be integrated into the ongoing 
activities that we have in the country. So on the ground it 
will not really be an additional layer; it will be an 
additional facet to our assistance program.
    Ms. Woolsey. So how are you hearing from the people? I 
mean, that is not their representatives. The people themselves, 
how are they bringing them into, whatever situation, sit down 
and talk about it this?
    Mr. Garvelink. Well, again, that works--the country team 
that is out there, the USAID mission, the U.S. Department of 
Agriculture, the Millennium Challenge Corporations, in addition 
to meeting with the government officials, they meet at the 
local level and community level. Having been an aid mission 
director myself a few years ago, you actually go to the 
communities, talk to the people under--if you are going to 
design your programs right, you want to know what they need and 
you want to hear it from them, not what you think officials in 
the capital city would like but you have got to talk to the 
people on the ground, in the villages who you will be providing 
assistance to, to get it right.
    So our teams do in fact meet with the women on the ground 
and talk about, in Africa where they don't own land and they 
don't have access to credit and they don't have access to 
extension agents and women are not trained regularly as 
extension agents and that is something we want to change. So 
you have got to hear directly from them what their needs and 
concerns are. And that is going on through our U.S. missions in 
the countries where we are designing these programs.
    Ms. Woolsey. Thank you.
    Mr. Carnahan. Thank you. Next, I want to recognize 
Congresswoman Watson from California for 5 minutes.
    Ms. Watson. Thank you very much. I just want to spread some 
good news about something my dear friend said referring to 
Ethiopia.
    We just came back several months ago, and we worked on the 
ground with civil society with an organization called IP, Light 
Years IP (Intellectual Property). And as you know, they have 
four different levels of coffee beans there. We didn't go 
through government, but government officials came to visit our 
conference for 3 days. And what we did with the farmers, we 
trained them how to brand, how to copyright, how to negotiate, 
you know, how to get their product out there and receive the 
benefit back. They were getting something like $2 per bushel.
    But I say that if you work with civil society, you work 
with the NGOs, I think our resources go further, because they 
are, in many cases, native people or people who have worked 
with the native people and they understand best how to serve 
their own communities and they know how to train and teach. And 
working with them I find has been very helpful.
    As I understand, the initiative is divided into two parts. 
Is that correct? The food initiative for each of the host 
countries? Phases.
    Ms. Haslach. Yes.
    Ms. Watson. And there is a planning phase and there is an 
implementation phase. Am I following the instructions, from my 
staff in the back, correctly? And I think the administration 
budget justified included the funding required for each host 
country and each phase. The $1.6 billion request for the Feed 
the Future for Fiscal Year 2011, however, does not include 
additional funding for food aid through global health and child 
survival programs or Food for Peace nor food aid earmarked for 
the NGOs.
    So can you give us some kind of timeline how that is 
moving? And how does phase 1 take into account the food from 
each of the different funding streams? And how long are the 
phases, say, phase 2? And how do you tend to implement?
    Ms. Haslach. The overall budget request is not just 
specifically for the 20 countries. It also includes our 
strategic partners. It is also for regional organizations. It 
is also for research, and it is also our contribution for the 
Global Agriculture and Food Security Trust Fund. So it is not 
specifically just for the 20 countries.
    Also, phase 1----
    Ms. Watson. Would you be able to add countries as per need?
    Ms. Haslach. Yes. Or subtract if we don't see--if countries 
don't submit a country investment plan.
    With regard to phase 1 and phase 2, we can get you much 
more detail about this. But, basically, phase 1 is looking at 
the foundation, is looking at the capacity building, looking at 
policy reforms, looking at sort of the nonphysical 
infrastructure aspects of it.
    In order to graduate to phase 2 with the full country 
investment plan, that is when the price year projects kick in, 
roads, irrigation systems, these types of things. And we want 
to leverage our other programs with a country as an MCC 
program, for example, we want to make sure that we are not 
building the same road or other donors or the trust fund isn't 
financing a project. So it requires very, very close 
coordination on the ground. And we on the ground and depending 
on the country they will call them an agricultural working 
group, a donor working group. They work with the government.
    But, again, that is where the consultation process is 
taking place. That is where civil society, women, farm groups, 
private sector are supposed to be included in that process. And 
when we were in Ghana--sorry. When we were in Senegal for this 
recent meeting that was co-hosted by ECOWAS and Spain, 12 
countries submitted their country investment plans and some 
were in various stages of development.
    Ms. Watson. Was Liberia?
    Ms. Haslach. Liberia was there. So what is important is the 
country submits this country investment plan that is part of 
this consultative process. But then, afterwards, once the plan 
was submitted then these groups got up, and each one had a long 
period of time in order to critique the country investment 
plan. So this is all part of the process.
    Ms. Watson. Well, I just want to give you a big, shall I 
say, a shout out for support with what you are doing. We just 
left a conference where President Johnson Sirleaf was, and my 
organization just gave $0.5 million to build a women's 
cooperative. You know the women that sit by the side of the 
road and they bring in the produce and so on? We want to build 
a infrastructure and we want to them bring all their 
intellectual property in and we want to assist them. And I tell 
you, she is doing a fantastic job.
    So there, it is the NGOs, it is all civil society working 
with the government. And I do take heed that, if the government 
is corrupt, we could run into some problems. But what I am 
experiencing is that some of the countries are starting at the 
top and giving a green light, so to speak. And so I would be 
really interested in giving the information back that was asked 
for.
    I see my time is up, but I am very interested in this 
program. Thank you, Mr. Chairman, for having this hearing 
today, and we are going to track it very closely.
    Mr. Garvelink. If I could take a minute and add one 
comment.
    Mr. Carnahan. The gentleman is recognized.
    Mr. Garvelink. Thank you. You mentioned that the account 
for Feed the Future was separate from the Food for Peace and 
emergency food aid budget, and I just want to emphasize that 
that is true. The Feed the Future is not a substitute for the 
emergency food aid programs that we have run for many years 
through the office of Food for Peace and NAID.
    For example, unfortunately, the need for emergency food aid 
is going to continue; and while we are focused on 20 or so 
countries, there are a lot of other ones that are not as 
fortunate as these 20 and they facing emergency situations. So, 
for example, in 2009, we provided about--the U.S. Government 
provided 2.6 million metric tons of emergency food aid to about 
44 different countries.
    That will continue, and the Feed the Future initiative will 
work very closely with emergency food aid so that they 
reinforce each other and help folks move from the emergency 
situation beyond to development issues. But the emergency food 
aid will continue.
    Ms. Watson. Mr. Chairman, may I take 1 more minute? I just 
have to say these things.
    Mr. Carnahan. Without objection, I will recognize you for 
one more follow-up. And then I will do the same for Mr. Smith 
as we wrap up.
    Ms. Watson. Thank you. We all are concerned about what is 
happening in Haiti. And one of the biggest issues is that there 
is food and food product in storage not getting out to the 
people. And what we are understanding is there is now a lack of 
coordination. So I heard that Haiti was on the list, and that I 
hope that the works that you are doing will help in terms of 
coordinating this and getting food out to--there are youngsters 
in orphanages that are starving, and there are warehouses 
because of some kind of bureaucratic blocking are not giving 
permission to get that food out. So that doesn't make sense to 
me. And I am hoping that as we gather in the information about 
the process, that we can really address Haiti. Thank you for 
the additional time.
    Mr. Carnahan. Thank you. And again, without objection, I 
want to recognize Mr. Smith for some quick follow-ups.
    Mr. Smith. Thank you. Just two quick questions. One would 
be on results with regards to evaluation. Will there be a focus 
on household level and not just on production? Yes? Secondly, 
with regards to DR Congo. And Mr. Ambassador Garvelink, I know 
that you served at DR Congo for 3 years. Yesterday, I met with 
your predecessor Ambassador Roger Meece, who as we all know is 
the special rep for the U.N., and wish him well in that very 
difficult job.
    I visited DR Congo and met with a group of farmers in the 
capital, Goma. And one of the farmers told me, ``I can grow 
anything. I just can't get it to market.'' And when I saw the 
roads that he had to take to get his produce to market, you 
know, his produce spoils. There is just no way of doing it in 
any kind of way en masse. Is the DR Congo on that potential 
list? They have had elections. They have made some strides. 
Obviously they still have a ways to go. But if you could speak 
to that.
    Mr. Garvelink. Unfortunately, it is not just the roads. 
There are blockades along the way where fees are collected. And 
for those reasons, as we talked about earlier, governance and 
the government's commitment to agricultural development is a 
critical element of identifying the countries that are 
considered for this initiative. And much to my personal regret, 
having spent 3 years there, they are not on the list.
    Mr. Smith. And one last point. While I was there, I learned 
that the Chinese government was spending billions on roads, but 
also had an agreement that any minerals they find in proximity 
to those roads become theirs, or at least their ability to 
extract it. And one parliamentarian told me with a bit of a 
smile on his face, ``Yeah, that is why the roads are a little 
bit zigzagged, because they are trying to incorporate the 
find.''
    From a strategic point of view and in terms of investing in 
people--obviously, they have suffered so much, lost so many 
people through years of warfare. Might the DR Congo be at least 
considered a candidate?
    Mr. Garvelink. Well, just a couple of comments. We have a 
small agriculture program going on in the Congo where we are 
confident through NGOs that we can reach the people that we 
have to reach through those organizations. But there is also in 
the eastern part of the country--in Goma, there is a fairly 
large emergency assistance program that will address the needs 
of the folks caught in the middle of the conflict and that sort 
of thing, but it is not part of this initiative.
    Mr. Carnahan. For one additional follow-up, I am going to 
recognize Mr. Rohrabacher for 1 minute.
    Mr. Rohrabacher. Did you say that Cambodia was on that list 
as well? Do you know much about the Hun Sen regime in Cambodia? 
Would you call that an honest government? Something that if you 
managed to do something to help further promote the people that 
it will permit the benefits to go to the people rather than 
being taken away by the corrupt dictatorship in Cambodia? Hun 
Sen is a tough guy. I mean, he is a gangster. And so are the 
people in Ethiopia.
    Look, it is one thing that we can all proclaim how much we 
want to help people. And I think it is really important that 
the United States maintain itself as a good country as well as 
a free country, and we are good because we care about people. 
But borrowing money from China in order to promote something in 
a country run by Hun Sen or these guys in Ethiopia. And I don't 
know about these other countries. I think that we are saddling 
our young people with debt for the rest of their lives in order 
to do something like this makes no sense. Thank you.
    Mr. Carnahan. Thank you. And I want to take care of a piece 
of housekeeping business. I know that Ambassador Garvelink 
asked that the Feed the Future guide be included in the record. 
Without objection, it will be. And also, just thank you, for 
the work you are doing, the goals--the multilevel security 
goals--involved in what you do, the levers that we have high 
hopes that this program will create. But we do want to continue 
to work with you, watch this closely, have you back--the new 
coordinator--here when the yet to be named coordinator--we hope 
to have him here before the committee as well. Thank you very 
much.
    If we could have the second panel come up. We are going to 
jump into our second panel, if they could come forward. I want 
to welcome our second panel and do some quick introductions.
    Beginning on my left is Dr. William Danforth. He is 
currently the chairman of the board of directors of Donald 
Danforth Plant Science Center. He also serves as chancellor 
emeritus of Washington University and chairs the Coalition of 
Plant and Life Sciences. He became Washington University's 13th 
chancellor in 1971 and served until his retirement in 1995. Dr. 
Danforth received his B.A. from Princeton University, his M.D. 
from Harvard Medical School in 1951, and is a native of St. 
Louis, Missouri.
    Next, Mr. Gerald Steiner is Monsanto's executive vice 
president of sustainability and corporate affairs. He leads the 
company's global Government and Public and Industry Affairs 
teams across 70 countries where Monsanto does business. He is 
also co-founder and board member of the Global Harvest 
Initiative, a public-private initiative whose mission is to 
sustainably double agricultural production by 2050. He received 
a B.S. degree in agriculture economics from the University of 
Wisconsin and an MBA from Washington University.
    Next, Dr. Hans Herren. He was appointed Millennium 
Institute's president in May 2005. Previously, he was director 
general of the International Center for insect physiology and 
ecology in Nairobi, Kenya. Dr. Herren was the recipient of the 
1995 world food prize, the highest award given to an individual 
for advancing human development by improving the quality, 
quantity, and availability of food in the world. Dr. Herren 
earned his Ph.D. at the Federal Institute of Technology in 
Zurich, Switzerland.
    Next, Ms. Evelyn Nassuna. Welcome. Ms. Nassuna is the 
Uganda country director for Lutheran World Relief, an 
organization that works with local implementing partners around 
the world to seek lasting solutions to rural poverty. She 
manages the LWR's Uganda portfolio of agriculture, health, and 
livelihood development work. Previously, she worked for 
Catholic Relief Services in Law and Advocacy for Women in 
Uganda. She is a native of Uganda, holds a bachelor of law from 
the University in Tanzania and a master's degree from 
Georgetown University Law in Washington.
    And, finally, Ms. Jennifer Smith Nazaire has been country 
representative of Rwanda since August 2008, joined Catholic 
Relief Services in 1993. She has worked in Morocco, Haiti, and 
Cameroon, holds a bachelor's degree from Mount Holyoke College, 
a master's from Johns Hopkins School of International Studies, 
and was also a Peace Corps volunteer in Cameroon.
    Welcome to all of you. We are really looking forward to 
this second panel. And we will recognize Dr. Danforth to kick 
this off. Welcome, Dr. Danforth.

  STATEMENT OF WILLIAM H. DANFORTH, PH.D., CHAIRMAN, BOARD OF 
        DIRECTORS, DONALD DANFORTH PLANT SCIENCE CENTER

    Mr. Danforth. Thank you, Mr. Chairmen, Chairman Carnahan, 
Chairman Payne, Ranking Members Rohrabacher and Smith. I 
appreciate this opportunity to share my vision with you.
    We started our plant science center in St. Louis because we 
saw an historic opportunity to further important basic human 
rights; enough nutrition to sustain life and health, and a 
liveable environment for one's family. We saw that these goals 
could be pursued in partnership with national and international 
organizations. And we believe and do believe that the stars are 
aligned for success for several reasons: One, thanks to decades 
of Federal investment, we have the scientific biologic tools. 
Second, we have two strong Federal programs, the Agricultural 
and Food Research Initiative, AFRI, that is part of the new 
congressionally mandated National Institute for Food and 
Agriculture in the USDA. And, second, the Agency for 
International Development works effectively with international 
organizations to bring them some of the boons of modern science 
to people who need it most.
    Thus, in my view, we have the tools and we also have 
problems that need solutions. We have heard earlier 1 billion 
people will go to bed hungry tonight. On an average, every 6 
seconds a child will die causes related to malnutrition. So we 
feel a sense of urgency.
    Moreover, the population of the world is growing, as are 
the demands on farmers for greater production per acre with 
less input of water and fertilizers. We think that 
biotechnology is part of the solution.
    As I say to our St. Louis friends, we with our skills are 
at the right place at the right time. It is up to us to make 
the most of our opportunities to do something wonderful. And I 
appreciate your interest here for nothing, so great can happen 
without the support and help of the Federal Government.
    I will tell you a bit about how our plant science center is 
just one example of what can take place. We are not for profit, 
dedicated to using plant science for human betterment. More 
specifically, we want to help feed the hungry and promote 
better human nutrition and to preserve and enhance the 
environment, to feed the world with its expanding population 
and greater per capita consumption of food without ruining the 
environment. That will require that, by 2050, farmers will have 
to double the production per acre with less use of water and 
fertilizer. The traditional method of adding more acreage won't 
work. That land just doesn't exist.
    Our work with cassava will provide you with specifics. 
Cassava is a root crop with limited market or money-making 
potential in the developing world, but is the third largest 
source of calories in the developing world. Seven-hundred 
million people rely on a cassava as a major source of food. It 
offers a lot: Rich in calories, grows in poor soils, withstands 
drought. It is a food security crop. Families can preserve the 
roots in the ground and dig them up when they are hungry. But 
cassava has problems. Crops can be devastated by virus 
diseases. While there are lots of calories, it lacks vitamins, 
minerals, and proteins. Children are especially subject to 
protein deficiency and vitamin A deficiency, two conditions 
that can lead to disability and early death.
    We have two separate projects. Our longest one is to 
increase the resistance to cassava mosaic virus and, more 
recently, the devastating brown streak virus that destroys 
crops. So far, the results of field tests in Uganda look good.
    More recently, thanks to the Gates Foundation, we have been 
making cassava more nutritious. To date, we and our partners 
have quadrupled the levels of protein and iron and increased 
the amount of vitamin A by 30-fold. But doing science is only 
part of our effort. With the funding of the Gates Foundation, 
we created a new biosafety resource network. The goal is to 
assure research projects that are part of that foundation's 
Grand Challenge, Global Health Initiative, deal properly with 
biosafety regulatory issues, and the technologies are socially 
and culturally appropriate. We work with African scientists to 
train young people to be scientists.
    Finally, I would say that Federal support for these timely 
efforts is very important to make the most of today's 
opportunities. And I particularly note the importance of the 
Department of Agriculture with its new agriculture and food 
research initiative and the agency for international 
development.
    I have with me an article from the New York Times that is 
quite interesting and I would like to submit it, if I may, for 
part of the record.
    Mr. Carnahan. Without objection. Thank you, Dr. Danforth.
    [The prepared statement of Mr. Danforth follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. And we will next go to Mr. Steiner.

 STATEMENT OF MR. GERALD A. STEINER, EXECUTIVE VICE-PRESIDENT, 
   SUSTAINABILITY AND CORPORATE AFFAIRS, MONSANTO CORPORATION

    Mr. Steiner. Thank you. And good afternoon, Chairman 
Carnahan and members of the committee. Thank you for inviting 
me to testify on an exciting new initiative, Feed the Future. I 
am going to present a summary of my written testimony.
    For us, Feed the Future is exciting because it recognizes 
the power of millions of farmers to meet the world's growing 
demand for food and fiber and fight poverty at the same time. 
Farming is diverse and it is local, and there is no single way 
to accomplish the goal described. There is no silver bullet 
that, if you do just one thing, we can meet this problem and 
fix it. I find in my travels around the world that farmers are 
often underestimated, and we really believe that farmers should 
have more and better choices so that they can select what they 
see as best.
    Now, I grew up on a small Wisconsin dairy farm, and I 
really loved watching things grow. And, Chairman, I stacked 
many loads of hay myself and I understand the importance of 
stacking the foundation very firmly. Today, I love working for 
Monsanto. We are a company that develops some of the tools that 
helps farmers produce more on every acre, do it with less risk, 
and with a smaller environmental footprint. As a company, we 
are wholly focused on agriculture. It is our only business. 
That gives us great opportunity and it also gives us great 
responsibility, and we are committed to improving agriculture's 
ability to meet the demands that are placed on it by the 
growing population that has been talked about here and the 
environmental challenges.
    This is an immense challenge, and no one can achieve it by 
themselves. We actively partner with other people including on-
the-ground NGOs. Together, we believe we can build systems that 
begin with access to more choices and tools like improved 
seeds, fertilizer, extension, and have to end with a 
functioning market and a road to get the commerce there. In 
other words, these are exactly the type of systems that are 
envisioned in Feed the Future.
    For Monsanto, doing our part means investing in cutting-
edge innovation to develop better seeds, seeds that farmers can 
see for themselves and choose when they see that they make 
sense. Now, this private sector investment requires predictable 
science-based regulatory systems and reasonable laws to protect 
these kinds of new inventions. We have 400 people who live and 
work in Africa, and we are proud that our local business in a 
country like Malawi was able to contribute to the improvements 
in food security that they have made over the last 5 years, and 
we believe that these situations ultimately are addressed by 
having a strong local business sector, and that is crucial to 
accomplishing the mission. And sometimes a humanitarian action 
is also needed to get it started.
    We are engaged in a variety of public and private 
partnerships around the world both in the market development 
side as well as accessing better seeds. One of the most 
significant on the accessing better seeds is a 2-year-old 
program called the Water Efficient Maize for Africa, or WEMA. 
Its goal is to increase the drought tolerance of white maize in 
Africa where it is the key stable crop.
    Now, to maximize the performance and deliver the best 
locally adapted drought tolerant seed for these farmers, we 
have donated access to our best locally adapted hybrid 
germplasm, new breeding tools that we developed for our 
commercial business, and biotechnology-based genes that we 
think are going to help in drought. Nothing is held back in 
meeting this challenge. We believe WEMA will result in seeds 
that perform just as well in good conditions but achieve 20 to 
35 percent more yield when we have moderate droughts. And the 
yield protection provided by these seeds then makes it less 
risky for farmers to invest in fertilizer, meaning more farmers 
will use it and the entire local community will benefit from 
the increased production and increased consistency.
    The design around WEMA follows the principles that are laid 
out in Feed the Future. It is led by a local organization in 
Africa, the African Agricultural Technology Foundation based in 
Kenya. It directly engages the five partner countries and their 
ag research systems. CIMMYT, which is the International Maize 
and Wheat Improvement Center and home of the late Dr. Norman 
Borlaug. And while these scientists are out there working in 
the field developing this product, they are also developing 
their capacity. In fact, there is a brand-new team of 60 
scientists that are out there today that are up and operating. 
This new kind of unprecedented partnership makes excellent and 
efficient use of public resources, and I believe it is part of 
the future.
    In closing, the beauty of helping with better seeds, 
whether they are conventional, hybrids, or biotech, is that 
they can be used by and benefit every farmer, from the woman in 
Burkina Faso, farming an acre with a hoe, to the Iowa farm 
family using GPS-guided tractors on thousands of acres. The 
promise of an improved seed is portable, it is scale neutral, 
and it is built in. Our focus is on what works in the field.
    Feed the Future contains the seeds for real progress also 
in helping them meet some of these most pressing needs and 
greatest opportunities, and we stand ready as one of many 
partners to help it grow. Thank you.
    [The prepared statement of Mr. Steiner follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Thank you. Dr. Herren.

    STATEMENT OF HANS HERREN, PH.D., PRESIDENT, MILLENNIUM 
                           INSTITUTE

    Mr. Herren. Chairman Carnahan, members of the committee, it 
is a pleasure to be here today, and thanks for the invitation.
    The Feed the Future Guide, I think, is a very forward-
looking document, and again which demonstrates a strong will to 
move forward in terms of the global food security. I would have 
called this Nourish the Future rather than Feed the Future, 
because I think we have to think also of nutrition security and 
not only food security in the future.
    The five principles by which this initiative will be 
implemented look interesting, and certainly but also need to be 
looked at a bit more closely. In particular, the issue of this 
country-owned plans, and I think in particular, the issue of 
how are the countries able to do the planning and confer and 
defend their own ideas later on. And I think that has been 
shown in the past to be a problem and I think also in the 
future, unless some steps are being taken to help countries 
with developing those plans, in particular with capacity 
building to get in that direction so they can do their own, 
make their own decisions and confer with plans which are 
acceptable.
    The policy approach, which consists of sustainable 
agriculture and small-scale farmers, again, that is good, which 
is lined out, but I think it is falls short on some key issues 
which are the center of a new paradigm for sustainable 
agriculture. What has been outlined as the way forward again is 
more of the same, more seeds and fertilizer. And there is very 
little talk about actually looking at the system, because the 
problems in agriculture are systemic problems in agriculture 
and beyond agriculture, which I think have to be addressed. And 
they cannot be sold with the quick fixes as in the past we have 
done already.
    And as the cochair of the International Assessment of 
Agricultural Knowledge, Science and Technology for Development, 
these are the book here, 2,000 pages total which have been 
written by 400 people is not even mentioned in the report. And 
here we have basically analyzed the last 50 years of 
agricultural knowledge, science, and technology and look 50 
years forward. It is quite interesting that even though there 
are summary for decisions-making which are very small, some 20 
pages to read, have not found their way into the initiative. 
Which, by the way, was funded by the United States for 
$250,000, had three government members writing on it, 56 U.S. 
authors were also part of this exercise. So it is a bit 
unfortunate that all the wisdom which has been accumulated 
there in particular looking at sustainable agriculture issues 
have not been taken into account.
    We also make a point that the multi-functionality of 
agriculture is very important, and we have to look at 
agriculture in the environment where it is done, and it is very 
site specific so one size doesn't fit all at all. And I think 
that is something, when we look at science and technology how 
this could be helping, we have to be very careful that this is 
done actually locally rather than just in one place and 
transferred to another.
    One issue also which doesn't appear and which relates to 
actually the issue of nutrition security is the issue of 
diversity. And, again, here I think the report doesn't address 
the issue of more diversified food plants which need to be 
grown and worked and developed, and I think that is something 
which cannot be done simply and needs to be done at the country 
level by the people, and because they are very dependent on the 
different environments.
    And I think we know what works. There are many technologies 
developed already in Africa manage to push-pull, and you can 
look it up, or biocontrol which have saved the cassava crop. 
With $20 million, we save 200 men and people's livelihood and 
20 million lives. I have done this myself, so I know what is 
going on and how we can change things in Africa. And it cannot 
be done with quick fixes. Again, I think we have to think about 
the system and see how we can work with the system rather than 
with just a silver bullet approach. It is a matter of price 
also to make sure that some of the solutions I think which can 
be implemented right now are already.
    They could go with much less cost and time delay than to 
develop new varieties, when actually we know that what exists 
already can quadruple minimum or maybe more in a very 
sustainable way the production, agricultural production in 
Africa and farm productivity, rather than just more yield of a 
specific crop.
    So I think that we do have solutions. We want to make sure 
that they get implemented rather than to look again for silver 
bullets. Thank you.
    Mr. Carnahan. Thank you, Dr. Herren.
    [The prepared statement of Mr. Herren follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Now I would like to recognize Ms. Nassuna.

   STATEMENT OF MS. EVELYN NASSUNA, UGANDA COUNTRY DIRECTOR, 
                     LUTHERAN WORLD RELIEF

    Ms. Nassuna. Thank you, Mr. Chairman, and members of the 
respective subcommittees for this opportunity to speak about 
Lutheran World Relief's work with small-scale farmers in 
Uganda, as well as my initial thoughts on the impact that Feed 
the Future can have on that work.
    Some of you are probably familiar with LWR, but many of you 
I suspect are not. So let me begin by telling you a bit about 
us.
    LWR is a relief and development organization support by 
U.S. Lutherans, church bodies, private foundations, and a small 
number of government grants. We are also supported by some 
remarkable U.S. farmers who work with the Foods Resource Bank 
to use their farms to raise funds to support in farmers in 
developing countries.
    In Uganda and around the world, LWR works through local 
NGOs and grassroots organizations to seek lasting solutions to 
rural poverty. Guided by a philosophy and framework of 
accompaniment, we seek to empower local communities by 
emphasizing shared values and jointly developed objectives. I 
have personally been blessed to offer LWR in Uganda since 2004.
    One of the organizations I have had the privilege to work 
with in Uganda is LWR partner Gumutindo Coffee Cooperative 
Enterprise. A few years ago, the story of Gumutindo could 
easily have been a story of failure. In 2006, Gumutindo 
recorded a loss of $2,000. Coffee bean quality was low, 
production was weak, and farmer members lacked technical 
knowledge to produce hearty crops. LWR worked with the 
organization to put in place better financial systems and 
provide the resources to help train the farmers. Now, Gumutindo 
has become a booming cooperative. Its coffee beans are high 
quality, its production is efficient. Membership has grown to 
10,000 farmers. And, in 2008, made a profit of $250,000. The 
very banks that refused to work with the cooperative in 2006 
are now calling Gumutindo and offering loans.
    But real success is not in numbers, it is in its members. 
Like Mrs. Masifa Bisaso. Mrs. Bisaso is a widow and a coffee 
farmer who once struggled to produce enough income from her 
coffee trees to feed her family. As a result of her own hard 
work and training from Gumutindo, Mrs. Bisaso has seen a 
remarkable transformation in her farming enterprise. She says 
her trees look better and she is commanding a higher price for 
her crop, but she is especially excited by high increased yield 
which is more than 30 percent larger than last season.
    With her new income, Mrs. Bisaso is investing in a 
diversified diet for her family by purchasing a cow and two 
goats. She is also paying school fees for a granddaughter and 
saving to buy a pulping machine which will help further 
increase the value of her coffee beans.
    In the Wakiso district, LWR works with a Ugandan NGO and a 
certified microfinance institution calls Voluntary Action for 
Development to provide access to credit, training, and 
technology for ten cooperatives of maize, bean, and mushroom 
farmers. Mrs. Namuli Kate is one of the farmers.
    A subsistence farmer for the last 10 years, Mrs. Kate was 
struggling to provide food and education for her three 
children. With the help of VAD, she recently decided to focus 
on growing produce to provide income as well as food for her 
family. After being trained in new farming techniques, 
bookkeeping, and marketing, Mrs. Kate was able to take out a 
small loan to cultivate two acres of improved maize. After 
selling her crop to a local school, she was able to pay off 
part of her loan, send her children to school, and invest in a 
local poultry project.
    With more than 1 billion suffering from hunger, the world 
can learn much from the experiences of Mrs. Bisaso, Mrs. Kate, 
Gumutindo, and VAD. Key lessons include the need to focus on 
small producers, empower women, strengthen organizations, and 
consult with the affected communities.
    One of the things I didn't tell you in connection with the 
story of Mrs. Kate is that much of the food accessible in rural 
Africa is produced by farmers just like her. I have seen 
American farms, so I know that her two acre maize patch might 
not seem much to you, but you cannot overlook her or her maize 
patch if you want to help Uganda. What she does is a mainstay 
of our economy, and the primary source of our food. Working 
with small-scale producers to increase yields and create value-
added products, two important components of Feed the Future, is 
the way forward for Uganda.
    Feed the Future has also identified gender as one of its 
cross-cutting priorities, and I strongly with this strategy. 
Although women like the two I have told you about do most of 
the farming in Africa, they face significant disadvantages 
compared to men. Challenges include access to land ownership, 
education, and credit. So I look forward to seeing increased 
efforts to make agricultural inputs and extension services more 
accessible to women.
    At the same time, I hope Feed the Future will be careful 
not to overlook the husbands, fathers, and brothers of these 
women. Before starting a new project to help women, it is also 
important to consult with the men to find out what it would 
take them to make them supportive of the project. When men are 
included in the process and see that what the women are doing 
is helpful to their communities, they will support progress 
instead of opposing it.
    Another big challenge for Feed the Future will be to scale 
up work that is already proving successful. LWR, for example, 
has helped tens of thousands of Ugandan farmers, but there are 
more than 30 million people in our country, the majority of 
which derive all or part of their livelihood from agriculture. 
And helping rural communities is in a developing country is 
challenging. Each farm is different and each community is 
distinct. The only thing you can count on is the fact that the 
travel to reach them will be difficult.
    Supporting organized groups of farmers is the key to 
scaling up successfully. Feed the Future is a new initiative, 
and so the impulse may be to start new groups and 
organizations, but I encourage you to focus on the groups that 
are already there. They may be poorly governed and have little 
bookkeeping or business knowledge, but as demonstrated by our 
work with Gumutindo, there is great potential to turn these 
groups into good development partners, with built-in community 
support, who can provide technical education, collective 
purchasing arrangements, collective credit arrangements, 
savings opportunities for thousands of farmers at a time. But 
the most important lesson I can offer you from my work in 
Uganda is that Feed the Future must find a way to ensure that 
national governments in charge of developing country plans 
consult with the intended beneficiaries and their local civil 
society organizations. In Africa, this means more farmers with 
limited resources and little time to spare. Civil society 
organizations are equally stretched, and with many staff 
members holding two jobs to just make ends meet. But these 
people and organizations must be involved if country investment 
plans are to be effective, accepted, and incorporated broadly.
    Governments must have the financial support and the 
incentive to consult with farmers. In most cases, they cannot 
do this by e-mail or even by phone. Government officials must 
meet in person with small farmers and civil society groups, and 
provide adequate time for meaningful consultation. Very 
literally, this means government officials making trips, or 
supporting the travel of small farmers and civil society groups 
to hold consultation. Something as simple as providing 
translation is easily overlooked and also critical to 
consultation success. But this too calls for financial support.
    I trust these efforts will be made, but at the end of the 
day, Feed the Future must ensure that national governments 
fulfill their consultation requirements by refusing to push 
forward country plans that do not include the input of affected 
communities and local civil society.
    My final thought on Feed the Future is simply that you 
should give this program the time and the support it needs to 
succeed while still remaining vigilant in your roles as 
overseers. In the agriculture sector, results are rarely 
immediate, and if they are, you may want to question them.
    Mrs. Bisaso and Mrs. Kate did not improve their livelihoods 
overnight, and, to be honest, they still face challenges. But 
they have more stable access to food than ever, and their diets 
and those of their families continue to improve. This important 
progress came as a result of their own hard work and a little 
support from people in the United States. Your continued 
support for Feed the Future will ensure that many more lives 
are impacted. Thank you.
    Mr. Carnahan. Thank you.
    [The prepared statement of Ms. Nassuna follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Next, I would like to recognize Ms. Nasaire.

       STATEMENT OF MS. JENNIFER SMITH NAZAIRE, COUNTRY 
        REPRESENTATIVE, CATHOLIC RELIEF SERVICES--RWANDA

    Ms. Nazaire. Good afternoon. I would like to thank Chairman 
Payne, Chairman Carnahan, Ranking Member Smith, and Ranking 
Member Rohrabacher for calling this important hearing on Feed 
the Future program. To the two chairmen, I would like to submit 
my official statement for the record, and I will be summarizing 
my statement for you here.
    I am Jennifer Smith Nazaire, Catholic Relief Services 
country representative for Rwanda. CRS has had a presence in 
Rwanda since 1960, and we have worked since then in poor 
communities throughout the country and many other countries on 
agricultural production, food security, and nutrition 
initiatives. CRS has maintained a steadfast relationship with 
these communities and local partner organizations throughout 
the changes and development approaches over more than four 
decades.
    During the 20 years of neglect of agriculture by major 
development donors, CRS used our limited private resources to 
continue to work with farmers and rural communities because we 
recognized the crucial role that agriculture plays in rural 
economic development and its direct link to reducing poverty 
and hunger.
    CRS would like to emphasize that the purpose of Feed the 
Future Program should be to build food security for the poorest 
people in the poorest countries, and not just to increase food 
production through agribusiness or other large-scale schemes.
    Governments must play a national leadership role, but do 
not always have the orientation and capacity to reach the 
poorest farmers in a comprehensive and effective way. To 
develop effective and representative responses, governments 
need to engage with local civil society and international NGOs 
about the best approaches for solving problems of food 
security.
    CRS has a long proud history of partnering with the 
government of Rwanda and civil society organizations in 
agriculture, food security, and nutrition programming. Such 
programs have evolved significantly over 50 years from 
nationwide school feeding activities to complex and 
comprehensive nutrition and livelihood projects, reaching 
Rwanda's most vulnerable populations. Today's programming also 
includes value chain marketing initiatives involving strategic 
food commodities such as cassava, orange blush sweet potato, 
and coffee, to name a few.
    Local operational NGOs are advancing food security 
development efforts in significant ways in all Feed the Future 
target countries. National investment strategies do not always 
reflect this. Local NGOs have developed programs and activities 
over many years that advance food security to fill a void 
caused by lack of attention by national governments.
    On December 7 and 8, 2009, I was one of a number of NGO 
representatives invited to a 2-day country-led consultation 
process for Feed the Future in Kigali, hosted by the government 
of Rwanda. The meeting was part of the signing of a compact 
between the government of Rwanda and the African Union's 
Comprehensive Africa Agriculture Development Program, CAADP. As 
you know, Rwanda was the first Feed the Future target country. 
There was minimal involvement of civil society and 
international NGOs in the meeting discussions. It was evident 
that the government of Rwanda and donors do recognize that we 
in the international NGO community are filling an important gap 
until necessary capacity has been built in government and civil 
society, but there were no specifics on how we, or even our 
local civil society partners, would be involved in the 
government's plan for agricultural transformation to improve 
food security.
    As I come to the end of my testimony, on behalf of CRS I 
would like to offer four recommendations: First, the measure of 
success for Feed the Future should be how families grow more 
food, earn more income, and are better able to provide a 
healthy diet for themselves and their children.
    Two, we need to ensure that national investment strategies 
have mechanisms within their budgets for funding civil society 
organizations to further the goals of Feed the Future.
    Three, we would like to see governments formalize 
mechanisms for citizen participation. Establishing 
participatory budgeting or ombudsmen's offices to address 
citizen complaints can both empower citizens and provide 
governments with greater understanding of societal problems. 
These and other mechanisms for ensuring participation in 
country strategy development can also serve as a foundation for 
greater transparency and accountability.
    Fourth, and lastly, U.S. Government representatives in Feed 
the Future target countries need to arrange regular meetings 
with civil society including international NGOs, local NGO 
partners, faith-based groups, and other pertinent members.
    To both chairmen and ranking members, thank you for this 
opportunity to present testimony before the subcommittees. Feed 
the Future is an exciting departure from the past as it seeks 
to address the complexities of global hunger through a 
comprehensive approach that brings all stakeholders into the 
process. It is our conviction that civil society plays a key 
role in that process.
    I would be pleased to answer any questions that you may 
have at this time. Thank you.
    [The prepared statement of Ms. Nazaire follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Carnahan. Thank you, and thank all the panel.
    We will begin with a round of questions here. I will kick 
this off with the first 5 minutes and really wanted to start 
with Dr. Danforth.
    You had cited some great examples of the cassava project in 
terms of nutrition and resistance to disease that are 
impressive. Can lessons learned from that program be applied to 
other crops in Africa? And, if so, could you talk about that?
    Mr. Danforth. Yes. We have most of our efforts on cassava 
as an African crop. We also work with other African crops such 
as sorghum and chickpeas and other things, but cassava has 
gotten most of our attention. What we think is that the 
scientific technologies that we use can be applied to other 
plants.
    Other plants are not cassava. They have different problems. 
For example, we have been working on the cassava mosaic virus 
for many years, more than a decade. The work has gone very 
slowly, and it has taken a long time. We are finally in field 
testing, and it looks as if we have something very important.
    When the new virus came along, because we are used to 
working with cassava and doing this, instead of a dozen years, 
it took us 3 years to get something into the field.
    So these technologies can be used. You just can't take 
something from one plant and necessarily transplant it into 
another, but it can be done if you know how to do it.
    Mr. Carnahan. Thank you, Dr, Danforth.
    For others on the panel, perhaps Mr. Steiner and Dr. 
Herren, Nobel Prize winner Dr. Norman Borlaug strongly 
supported the use of both conventional and modern 
biotechnologies to develop crops needed for sustainability and 
for our growing population needs. I guess I wanted to get your 
comments on really trying to focus some of these debates that 
have gone on on sound science versus many philosophical 
arguments in terms of meeting these challenges and how we can 
really be sure we get the best science at the table during 
these efforts.
    Mr. Steiner. Chairman Carnahan, I would start from the 
perspective of a farmer. The farmer can only plant one seed in 
that spot in the field, and the farmer wants something that is 
going to work and stand up to the challenges that nature is 
going to bring forward.
    To the extent that we can solve these problems in a more 
simple manner with breeding, it is fantastic. We know there are 
certain things that are very, very difficult to do, such as 
getting plants to protect themselves against viruses of the 
kind Dr. Danforth talked about. Many of them we do with 
breeding. Or protect, for example, against insects. And it is 
very fortunate that we have been able to use the BT proteins, 
the same protein that organic gardeners use to control many 
pests and get plants to protects themselves.
    So I think if we look at this from a farmer's perspective, 
they just want something that works and works really reliably 
here. And I believe we are going to have to use the best of 
both to really get a solution that is going to fit in many 
different places, and that solution will be unique.
    Mr. Carnahan. Dr. Herren.
    Mr. Herren. I think we need to really look what has worked 
in the past, number one. I think there are biological control 
method against pathogens and insects, for example, that work 
very well. I think we have to dig up again and implement it. 
There is a lot to do there which doesn't cost the farmer 
anything and which actually takes care of the system.
    Now any seed, as good as it may be, won't grow on this 
table here. And the program actually in Africa is that we have 
a huge ill gap. The ill gap between the varieties which exist 
and what they could be performing are at least fourfold, if not 
more.
    Now where is the problem? The problem is therefore not in 
the seed. The problem is in the soil, soil fertility and water 
retention.
    So we have to put sort of the tractor in front of the cart 
and not behind. I think we have to really think about first 
issues are soil fertility, how to improve it, and actually make 
agriculture as part of the climate change solution, not the 
problem. Right now, we are losing all our organic matter. So 
let's put it back into the soil, have soils which are really 
fertile and where presently available seeds can produce enough 
food to feed Africa and the rest of the world beyond 2050.
    So I think we have to really stop to think about where are 
the problems and solve the problems and then to look at we have 
a solution here. Where can we use it?
    Mr. Carnahan. Thank you. My time is up.
    I will recognize Mr. Smith for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman, and thank you all for 
your testimony and for your leadership.
    Let me just ask a couple of questions.
    Jennifer Nazaire, I quoted some of your testimony during 
the previous panel. Several of my questions were aimed at 
providing these two subcommittees with very detailed accounts 
from the two ambassadors and from their office as to the 
criteria used for choosing the 20 countries. I know the four 
criteria, but when you really get down into the weeds, what was 
really done to ascertain that this country would be chosen over 
that country, and this is what we are going to do and how much 
we are going to spend. We need that kind of oversight 
information.
    But I especially want to know in addition, how the civil 
society and the international nongovernmental organizations 
have integrated. I am sure we will get that information. I hope 
we will get it in a timely fashion.
    There are several countries that Ambassador Garvelink has 
ticked off--and he did all 20 countries quite well, I thought--
as being in phase two: Ghana, Mali, Rwanda, Senegal, Tanzania, 
and Uganda. He also mentioned Haiti--and Bangladesh.
    Given that these countries are close to the launch phase, I 
am wondering what you have been seeing in the field with regard 
to inclusion of faith-based and international NGOs, civil 
society, and the private sector.
    I know we learned bitter lessons from PEPFAR and from the 
Global Fund--because of the CCNs and the way they operated--
that many faith-based and other NGOs that were indigenous to 
that country were left out. Especially in countries where there 
had been a history of corruption and perhaps an animosity 
toward the church because it was the voice for human rights 
that called government officials on the carpet, faith-based 
organizations were excluded from the CCMs. I and others have 
forcefully asserted that faith-based NGOs are the key to Africa 
health. And I would think that, given the long history that CRS 
has had in Rwanda, for example, since 1960, you need to be 
included and in a robust way. So I am very concerned.
    You mentioned that, as of that meeting, there was very 
little contact. Where is it now? Have they reached out to try 
to bring in Catholic Relief Services or Lutheran or any of the 
groups that provide tremendous information and insights and 
have a whole network that they can then work with on the 
ground?
    Ms. Nazaire. Thank you for your question.
    Yes, as I testified, I was invited and other international 
NGOs and civil society to this big meeting in November to 
launch the Feed the Future Initiative in Rwanda. We were very 
happy to be invited.
    As I said in my testimony, the discussions were not very 
inclusive, I would say, of civil society. I would not say that 
is the fault of the U.S. Government, necessarily. I think there 
are many reasons for that. Perhaps there is a certain 
environment in Rwanda--and I can only speak for Rwanda. I don't 
know what the situation was in other countries.
    In terms of inclusion of civil society, both international 
NGOs and local civil society, we feel very happy that we have 
been included in the consultations of the design of this 
program; and I want to make that very clear. We have 
collaborated very, very effectively, I think, and have been 
invited to participate in the design of this initiative.
    There is that phase and then there is the implementation 
phase, which you are asking about. I think it is a slow 
process, implementation, and there are many phases, and we may 
not be aware of all the phases and what is going on. What I can 
say is that there have been limited meetings even since then, 
since November, that have involved civil society, both 
international and local civil society. So I am a bit concerned 
about that.
    I think also there is the nature of discussion and 
participation. When those meetings with civil society are 
called, they basically look at plans that the national 
government and the donors have put together and then we are 
just being asked to check and say, yes, that looks good, or, 
no, this does not, or have we been active members in putting 
together those plans? I think that is what I am most concerned 
about.
    Yes, 2 weeks ago, we were invited to a meeting at USAID in 
Kigali. We participated. We were the only international NGO 
that was invited, as far as I know. I don't think local civil 
society was invited.
    Mr. Smith. I would hope the administration would take your 
advice and the advice of others into consideration, unless you 
want to create a sidebar type program that would be inferior to 
what could be done overnight. And we did it with PEPFAR. That 
was under the Bush administration. My hope is that we don't 
replicate that error here.
    Secondly, very quick to Mr. Steiner, we know Europe really 
does have a lot of heartburn over genetically modified 
organisms (GMOs); and, obviously, a lot of money coming into 
Africa and the target countries will be interfacing and working 
synergistically with European money, G-8 money and even G20 
money. So my question is, given their hostility toward GMOs, 
what kind of balance can be worked out? I think GMOs are a way 
of ensuring the greatest possible feeding of the world, within 
some guidelines. But how does that work with country led plans 
when you have a competing interest in terms of what kind of 
seeds go into the ground?
    Mr. Steiner. In a meeting that I was in a number of years 
ago, the expression was: When the elephant is dead, the grass 
gets trampled. That was what they had said. What I am heartened 
in what I am seeing is that more and more African countries are 
starting the process which will enable them to look at these 
technologies for themselves and make a decision for themselves.
    A very good example is Burkina Faso, which over the last 6 
years has been looking at insect-protected cotton, the same 
insect-protected cotton that is grown in this country and China 
and India and a whole number of other countries around the 
world. And they have moved forward and a third of the cotton 
crop was produced with the help of that technology, reducing 
the number of sprays from six to two.
    So I think the power of example will move this debate. It 
will be choppy, given those factors.
    Mr. Smith. My time is up. Thank you.
    Mr. Carnahan. Thank you.
    Next, I want to recognize Chairman Payne for 5 minutes.
    Mr. Payne. Thank you very much.
    I really applaud this initiative and how the world has come 
in to support it. With 25,000 people dying every day due to 
hunger or related causes and 265 million people, nearly one-
third of the continent's entire population suffering from 
hunger, I do know that we really can't keep spending a whole 
lot of money that we don't have. I think that our children and 
our grandchildren might forgive us for this $3 billion that we 
are talking about over the next 3 years, and maybe it will 
reduce some of the 25,000 people who die every day from 
malnutrition and its related diseases. You might--if you divide 
the number into the cost--you might find it is really not that 
much.
    I guess the question is, how much is a human life worth? I 
don't know whether it is in the eyes of some where the life is. 
However, that is a debate for another day.
    Mr. Payne. In Rwanda, you say that you have not been that 
involved. But how is food production in Rwanda better this year 
overall than it was last year or last year better than the 
previous year? I might just ask you: Is there success?
    Ms. Nazaire. Yes, Chairman Payne. I am not an 
agriculturalist, so I can't give you have any statistics 
exactly, but I understand that agriculture production is 
definitely improving in Rwanda. The Government of Rwanda has 
made a commitment to agriculture. They know the great majority 
of the population depends on agriculture. They have put their 
money forth, and their investment plan includes their own 
monies in addition to monies that they are receiving from 
development partners--or hoping to receive. So, yes, I think it 
is a success story so far in Rwanda.
    Mr. Payne. And there are countries that are doing poorer, 
to say the least, and it may be that the expertise that you 
have, the fact that you have been there so long, may have had 
something to do with the fact that the government has kind of 
pulled itself together and are doing better. So I think it is 
not really a rejection of your group. But it might be that 
there could be next door in Burundi, where I don't hear very 
good stories happening, that you may put your resources there, 
and it might be better for them.
    Let me just ask Mr. Steiner, there was a discussion about 
modified GMOs. If you could go back--a lot of times we say in 
retrospect that we go back and start all over again. Of course, 
you represent the companies. I want you to keep your job. 
However, do you feel that GMOs, the concept was introduced 
properly? Was it something that you knew, your company knew, 
other scientists knew, and you said, this is good enough? How 
can you reject this?
    I mean, look at when you are dealing with people who may 
have a traditional way that they went about either--I have read 
some articles where even the United States, an old farmer--and 
I don't know how old Mr. Carnahan was when he was doing that 
hay on the wagon--but some of the newer farmers, whether there 
was a thorough explanation about what this thing is.
    Mr. Steiner. I think that all of us, if we look backward 
and say there is nothing we have learned, we probably aren't 
looking very hard.
    The first thing I would say is that, from a standpoint of 
farmers, farmers everywhere around the world, when they have 
had the opportunity to choose, have very quickly seen the 
benefits of these products, whether it be fewer pesticides, 
less tillage, reduced costs, increased yields. And that has 
been true very universally.
    We, I believe, got caught up in being so excited about this 
technology. And the first couple of products--one of those I 
mentioned a minute ago was insect-protected cotton that Burkina 
Faso just took in place right here. And we thought that how 
could someone, including someone who cares deeply about the 
environment, not want to see fewer pesticides being applied to 
a cotton field? How could anyone fight that? And we really 
thought we would see a lot more embracing from those 
organizations, and I think we were blinded by our own 
enthusiasm on this.
    So if we had a chance to do it all over again, I think we 
would engage in a different kind of communication and a two-way 
dialogue at the very early stages. And we know that, once you 
start, you can't do it all over again. You have to deal with 
what you have got. But from a standpoint of technology and 
farmers getting a chance to see this, this has been extremely 
successful.
    Mr. Carnahan. I recognize Congresswoman Woolsey for 5 
minutes.
    Ms. Woolsey. Thank you, Mr. Chairman.
    I have no new thoughts on this, but I have two major 
concerns. We listened to the government panel, and they were 
quite convincing about outreach and inclusion with affected 
communities. I think that is because they actually believe that 
they are doing it, and they are doing enough of it. So I think 
there is a gap. I think there is a gap between their enthusiasm 
to get out and get going forward and what this panel, I heard, 
that will be glad for help, but I think the help would be much 
more effective if you included us in the planning, design, and 
implementation. So that--and I am going to ask for feedback on 
how you would do that.
    The other concern I have, and that is for you, Dr. Herren, 
when you are feeding and bridging a gap of needing a lot more 
food for a lot more people, how are we going to put controls on 
the possibility of maybe too much of a good thing when it comes 
to better seeds and what is really a better seed versus a 
better way of growing?
    I actually, Mr. Steiner, I represent Marin and Sonoma 
County just north of San Francisco. They have placards 
everywhere: No NGOs. Believe me, they are worried about this. 
So I think we have to worry. And there is a concern that we 
don't take advantage of a hungry nation or hungry nations by 
all of a sudden setting up systems where there will no longer 
be fertile seeds, et cetera, et cetera.
    So, first, how about you, Ms. Nazaire, on bridging the gap 
with the inclusion?
    Ms. Nazaire. Right. I believe that the administration is 
making serious efforts. I think there can always be more.
    But, obviously, some of my concrete recommendations, I 
would go back to what I said in my testimony about regular 
meetings with civil society. As I mentioned, we were included 
in a meeting 2 weeks ago. It is the first meeting that we had 
been invited to on this initiative for 6 months. So I think I 
would emphasize that regularity. And I don't know exactly what 
that regularity is. I think it depends on how fast the process 
is moving.
    I think that the other thing is advocating vis-a-vis the 
Government of Rwanda, for example, for more inclusion of civil 
society--local civil society and international civil society. I 
think that the government of Rwanda, for example, doesn't 
automatically think of us. They are in charge of their 
development agenda, and they want to be running the show. They 
do include us from time to time. But I think that the 
Government of the United States could advocate for us and the 
role that we could play more than they are.
    Ms. Woolsey. How about Uganda, Ms. Nassuna?
    Ms. Nassuna. In Uganda, we would recommend that Government 
works with the farmers themselves. They should do this in a 
more decentralized manner. They should go down to the 
districts, work with the cooperatives, the organizations, the 
producer organizations that already exist, to provide them with 
the information that is needed, instead of waiting to invite a 
few people to go down to the center of the country that is the 
capital to kind of provide their input into a plan that has 
already been developed. And it is important that it is done at 
the time that is quite convenient to the farmers. Sometimes 
they hold these meetings when farmers cannot even afford to 
leave their gardens to go out for a meeting. And they should 
work with civil society because they have been doing this for a 
very long time and they know how to work it well.
    Ms. Woolsey. Thank you.
    Dr. Herren.
    Mr. Herren. Thank you for this question.
    I think we need to realize that more food or more 
production doesn't mean less hunger or less poverty. Look at 
the green revolution. For all its benefit it has provided to 
grow more food, we have today, what, 1.3 billion people who are 
hungry and another 1.5 billion which are malnourished. 
Obviously, there is a problem with that approach which we need 
to rethink, and we have done so with 400 people for 4 years 
around the world.
    And we cannot get--although breeding is necessary, that we 
need better seeds, even maybe by technology or genetic 
engineering, the problem really is elsewhere. And we need to 
deal in sequence.
    So, first, we have to see where are the major constraints; 
and they are really actually in the farming systems, in 
growing, in plant health. And so we need to make the best use 
of what we already have of the research which has been done in 
the international agricultural research system, funded by the 
United States with a lot of money.
    So there are a lot of solutions that are already available. 
Why are they not put in place? And I think we need to think 
about genetic engineering or GMOs. Where do they really fit?
    And I think that if you ask yourself this question, you go 
out and look--I mean, I have 30 years experience on the ground 
in Africa, so I have seen it. I think the role they play is 
minimal at this time, because we know how to deal with the most 
urgent matter.
    And, actually, the farmers, women in particular, what they 
need is information. They want to know how can I do things 
differently on a project. It is amazing how much information 
people want and can absorb.
    But is it there? No. We need to prepare it to pass it on, 
and then they can do it.
    They want to know how do we do compost; how can we grow 
sustainably; how can we do a biological control. Things they 
don't have to pay for but which can actually increase their 
income. So all these things are available. Now let's put it out 
there and let's move it.
    Again, drought tolerance. There is a lot of drought 
tolerance in local varieties. Actually, some of the genes which 
are being taken out of local varieties in Tanzania and then 
replaced in other varieties. Maybe that is good. But, again, 
there are other solutions. We need a better soil which has 
organic matter to absorb the water, rather than to let it run 
off. We need to have complex systems where you produce a 
fertilizer in situ with legumes, with crop rotation. We don't 
just want maize and more and more maize. Because I think that 
is, first of all, not very good human food, certainly not in 
Africa where we have humongous problems with aflatoxins in 
corn.
    So, again, I think the solutions--we have worked with this 
so much. I would wish that the initiative would actually go 
back and look at this tremendous amount of work here and say, 
okay, what can we implement right now? Where are the needs for 
more research?
    Again, I think GM technology, more research is actually 
required. How do they fit into the system, into an integrated 
pest management system? So we don't have those answers yet. So 
let research go on and implement what we know already which 
doesn't create any issues and long discussions.
    Mr. Carnahan. Thank you.
    I think we have time to do some quick second round of 
questions before we wrap up.
    I just wanted to wrap up with a question with regard to the 
impact and the outreach to women. We will start with Ms. 
Nazaire talking about the outreach you have done. We heard 
comments earlier about the impact that women have in what we 
are doing in agriculture and in food quality and development. 
If you could touch on that.
    Ms. Nazaire. Sure. Absolutely.
    I agree with everyone who has talked about the vital role 
of women in agricultural production and also as caretakers of 
their family. In Africa, as it has already been stated, and 
certainly in Rwanda this is the case as well, a lot of the 
farmers--majority of farmers are women. The work that CRS does 
with our partners on the ground always works with groups of 
women who are in the majority in farmers' groups and in the 
cooperatives.
    In our nutrition activities as well, the majority of the 
beneficiaries are women. We are working with them on improved 
nutrition practices, on growing food in their kitchen gardens 
that are more nutritious for their families.
    So I would agree with everything that has been said and say 
that CRS is definitely working with women in agricultural 
production.
    And, also, it hasn't been really discussed today, but 
savings and internal lending groups, micro credit, are vital 
for food security as well; and it is important that those kind 
of programs be folded in. It is not all about agricultural 
production. It is also, as some of my colleagues said, about 
nutrition and access to income.
    Those groups, micro credit groups, are, by and large, 
women, 90 percent women. And payback rates, as you have all 
heard already, I am sure, are very high among women.
    Mr. Carnahan. Thank you.
    Ms. Nassuna.
    Ms. Nassuna. Of course, women do most of the work on the 
farms. They produce the food. But, unfortunately, they face a 
lot of challenges. Most of the women don't own the land on 
which they farm. They cannot access credit, and often when 
there is a training, it is the men that attend. That is why we 
are saying the consultations are very, very important to 
involve both men and women. Because when the men are not 
involved and we target only the women, then the men are not 
very supportive.
    We have seen this in our work, especially like with the 
coffee cooperative that they talked about. We may do all the 
work on the coffee farms; and then, when the money comes in, it 
is the husband that controls the money or the brother or the 
uncle, depending on the male figurehead around. But when one of 
our partners came up with an initiative that would be called 
the ``women coffee projects'' and women were being paid more, 
then men were more supportive and giving women land to farm 
their own coffee to generate income.
    So we are saying that when we are doing these consultations 
to target women, who are facing more challenges than their male 
counterparts, it is very important to involve the men, because 
they are supportive of the projects that we support.
    Mr. Carnahan. Thank you.
    Dr. Danforth and Mr. Steiner, can you talk about the work 
that you have done in outreach to women as well?
    Mr. Danforth. Yes. Our work is primarily with science and 
then carrying that into field tests. We, of course, have women 
in our organization and involved in the projects, in the field 
tests. We are reliant on our partners to say what their 
particular countries need, and we work in training scientists, 
both male scientists and women scientists. Because in the long 
run--and we hope in the very short run--scientific decisions 
for developing countries should be made by scientists in those 
developing countries.
    May I make one other comment? I would just like to say that 
human beings have been improving agriculture for 12,000 years. 
They have been improving agriculture through making better 
seeds, through irrigation, through looking for better land. And 
that is going on today, and it will probably go on long after 
we have gone.
    It has just been very, very interesting to hear these 
discussions. There is not going to be a single answer. I think, 
given the challenges in the world today, we want to encourage 
everything and stop nothing.
    Mr. Carnahan. Mr. Steiner.
    Mr. Steiner. For over a decade we have had an external 
advisory council, and two of the most influential persons of 
those councils over time have been women in Africa. But one of 
which led an underground NGO doing work similar to what Heifer 
International does and another who is a farmer herself. They 
have kept our feet to the fire of who we are really working 
with, and that predominantly is women.
    The last point I think Dr. Danforth made about needing 
everything I think is really important. As a matter of fact, I 
disagree with very little about what has been talked about of 
what is needed. The point I think we really need to be 
conscious of is not thinking about this from the perspective 
that we need to direct the agricultural system.
    I believe these farmers, predominantly these women farmers, 
are far more rational and effective decisionmakers than they 
are given credit for. Yes, they absolutely need more 
information, and essentially it is an important piece of this. 
But I believe in getting choices in front of these people. They 
will make good choices. That is one of the things I know we are 
personally committed to; and I hope Feed the Future does, also.
    Mr. Carnahan. Thank you.
    Mr. Smith.
    Mr. Smith. Just three quick questions.
    The Millennium Challenge Corporation and the coordination, 
do you see any evidence that there is an understanding by the 
20 targeted countries, particularly those with compacts, that 
they can, again, synergistically really enhance their situation 
if those are coordinated?
    Secondly, what country or countries would each of you add 
to the 20? What was left off the list that cries out for 
inclusion?
    And finally, how well coordinated are the other donor 
countries' contributions, as far as you know? Is there evidence 
that that money, particularly the new money, is being used? We 
know that some is just rearranged and repackaged. But there is 
some new money, I am sure, coming from several of those 
European and other donors. How well is that being used?
    Mr. Herren. I think what is important is to see how you can 
also work with--on a regional base. Because the international 
agricultural research and the regional agricultural may 
actually be places where, again, more support is needed to move 
the whole agenda forward. And also, like was mentioned, but 
also the Central African arrangement and also East Africa.
    So I think there are regional organizations where it may be 
valuable to look into because then you sort of avoid the issue 
of country A or B, but I think you can channel a lot of 
information and know-how to the farmers in these places, too. 
So, again, maybe looking on a regional level.
    Ms. Nazaire. Just very quickly for the three questions you 
asked. In terms of MCC coordination, I haven't really seen it 
myself so far. In Rwanda, I haven't heard it being talked about 
as much as Feed the Future. For other countries, I don't have 
any specific countries that I would say why was that country 
not included. I think there is a lack of information about why 
those particular 20 countries were chosen. I know a number of 
my colleagues' country representatives have been asking those 
questions.
    In terms of other donor participation and coordination, my 
feeling is that the European donors are coordinating quite well 
with the U.S. Government. And I can't say more than that, 
really.
    Mr. Smith. On that second point, we will get, I believe, a 
very detailed analysis from the administration as to how they 
were picked, criteria, the whole thing. Because I believe, Mr. 
Chairmen, it is very important that we know how this process is 
being undertaken, and maybe we might have a few ideas that 
could enhance it, and perhaps you would, too.
    Mr. Danforth. I was going to say, from the standpoint of 
making sure that the research is done in the United States in 
these areas, I have been amazed at the amount of information 
sharing and the amount of cooperation that goes into everything 
that we have been associated with. We have one in our 
environmental area where we have a single grant that has two 
national laboratories, 12 universities, and 15 private 
corporations all involved in one big project; and it is going 
fantastically well. That is what you can do with modern 
communication.
    Ms. Nazaire. I forgot to mention, although I don't have any 
specific suggestions for additional countries that need to be 
targeted, we do feel it is very important, and I was very glad 
to hear the testimony from the previous panel, that part of the 
Feed the Future Initiative funding will be also going outside 
of those 20 target countries. As we have heard, the neglect of 
agriculture over a number of decades has really affected a lot 
of countries, and I think it is important that we not just put 
all of our eggs into those 20 countries.
    Thank you.
    Mr. Carnahan. Thank you.
    Playing cleanup for today's hearing is Chairman Payne. He 
is going to get the last set of questions.
    Mr. Payne. Thank you very much. Let me once again commend 
you for this very important hearing.
    Dr. Danforth, you mentioned about moving forward and some 
of the countries that haven't had much of a program. Do you 
feel that the different countries are at different stages and 
that some very basic types of things could be done such as 
trying to control water during the rainy season or trying to 
have some other type of basic irrigation? What is your feeling 
on the sub-Saharan countries, the difference in the ability or 
the capability to move forward on this increasing agriculture?
    Mr. Danforth. Mr. Chairman, I can't comment on all of those 
things, because I don't have any knowledge and experience. I 
can comment only on the areas in which I have experience, and I 
would say this.
    There is a lot of difference in the African countries and 
countries in other continents in both their scientific 
knowledge, understanding, and the kind of governmental 
organizations they have to assess safety and to work with 
organizations that are trying to do bio safety. There is an 
enormous difference.
    I would also say that we work with the countries that we 
feel we can work with that want us to work with them. We don't 
have the self-confidence to coordinate these different 
governments. We work with those that want to work with us. 
Fortunately, more and more seem to be wanting to do so.
    The biotechnology that we use has been around for 14 years 
now, and there have been no problems with it, and people are 
getting more and more confidence. Other coordination, I can't 
really say with any expert knowledge.
    Mr. Payne. Ms. Nassuna, we talked about women having an 
impact. We know that Miss Wangari Maathai, the Nobel Peace 
Prize winner, really showed how one person can really make a 
difference.
    And I couldn't agree with you more that the women really 
are the ones that are the engine, and I couldn't agree more 
that I think you have to bring in the men to try to make them 
at least feel like they are partners to try to get the job 
done. I think that through our program--hopefully--we will try 
to stress that as we move forward to the various countries in 
Africa.
    I just conclude again by mentioning examples of good ideas 
and enthusiasm. For example, there was a notion 3 or 4 years 
ago of something called AFRICOM, where the U.S. said we are 
going to run in the region, and this is how we are going to do 
it from now on as related to the presence of the U.S. military 
in African countries. Now they didn't really mean they were 
going to go and have the General in charge and USAID and State 
Department report to them, but it sounded that way. So every 
country rejected it except Liberia. They were just looking for 
anybody to come in. If they are going to buy some food, they 
are going to help our economy.
    But it was just, I guess, a more current example of how 
something that is not introduced--something that is really 
good--and I am not so sure AFRICOM is as good as you say your 
GMOs are--receives the same kind of rejection, suspicion. Why 
now? Are they going to try to militarize our countries? Will we 
all have to report to Generals? We have elections to get rid of 
Generals and now you have got AFRICOM. So perception, as you 
know, is so important. And so I know that, as you move forward. 
I think that the way you are going about it now, perhaps with 
education, with results, probably is certainly going to be more 
advantageous than the initial response.
    Mr. Chairman, thank you very much for this very important 
hearing. I would congratulate you for telling the Speaker don't 
have any votes while I am having my hearing. I wish I could be 
that powerful.
    Mr. Carnahan. I think it was luck.
    Thanks to all of you on this panel.
    Ms. Nazaire. I don't want to prolong the hearing, but I was 
wondering, even though Chairman Payne didn't address the 
question to me, if I could address the issue of countries at 
different stages.
    I would just like to say that I do really feel that the 
different African countries especially, but I think all the 
countries, are at very different stages and abilities for 
moving forward and showing results from this program. All of 
them can go forward, but can they all show results? And I think 
that is what we are looking for.
    I think some of the things we should be looking at are 
absorption capacity, the level of priority that the government 
gives to agriculture, their commitment that has been shown and 
proven in the past, stability of the country. If the country 
doesn't have stability, it is really hard to move forward on 
some of these areas. And then accountability and transparency 
has come up in this hearing a number of times, especially 
earlier.
    So I would put that forward as well. I think that the 
administration has taken into consideration all of these 
things, and that is why you see the two phases. So I just 
wanted to appreciate that.
    Mr. Carnahan. Thanks to all of you for bringing your 
expertise and your passion here to this issue and for our 
previous government panel that is kicking off this initiative.
    Again, we have a very optimistic view of this, kicking off 
this new vision for development. It is not just about food. It 
is about security on so many levels. It is not just a U.S. 
initiative. It certainly is international in scope. We are very 
much going to be looking forward to getting the new coordinator 
in place to get the program up and running and to be sure that 
we are getting the most leverage and those results. That, I 
think, will tell a lot in terms of how this new program is 
really being rolled out.
    Thank you all very much.
    [Whereupon, at 3:53 p.m., the joint subcommittee hearing 
was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Mi
                               nutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Ca
                               rnahan 
                               FTR deg.__

  Material submitted for the record by the Honorable Russ Carnahan, a 
 Representative in Congress from the State of Missouri, and Chairman, 
Subcommittee on International Organizations, Human Rights and Oversight

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Po
                               e 
                               statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Po
                               e 
                               QFRs deg._
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l> deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
[Note: The entire May 2010 Feed the Future Guide is not reprinted here 
but is available in committee records or may be accessed via the 
Internet (accessed 10/25/10) at: www.feedthefuture.gov/FTF_Guide.pdf]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
